 Office of Inspector General




Semiannual Report
to the Congress

April 1 – September 30, 2013

Including the OIG Performance Report
for Fiscal Year 2013
The Federal Deposit Insurance Corporation (FDIC) is an independent
agency created by the Congress to maintain stability and confidence
in the nation’s banking system by insuring deposits, examining and
supervising financial institutions, and managing receiverships.
Approximately 7,340 individuals carry out the FDIC mission through-
out the country. According to most current FDIC data, the FDIC
insured nearly $6 trillion in deposits in 6,891 institutions, of which
the FDIC supervised 4,346. As a result of institution failures during
the financial crisis, the balance of the Deposit Insurance Fund turned
negative during the third quarter of 2009 and hit a low of negative
$20.9 billion by the end of that year. The FDIC subsequently adopted
a Restoration Plan, and with various assessments imposed over the
past few years, along with improved conditions in the industry, the
Deposit Insurance Fund balance steadily increased to a positive
$40.8 billion as of September 30, 2013. Receiverships under FDIC
control as of September 30, 2013 totaled 482, with about
$13.8 billion in assets.
                                             Acting Inspector General’s
                                             Statement

    I am pleased to present the Federal Deposit       material respects. We are proud of those results
Insurance Corporation (FDIC) Office of Inspec-        and appreciate the Department of State OIG’s
tor General’s (OIG) semiannual report for the         separate letter with recommendations to further
period April 1, 2013 through September 30,            strengthen our system of quality control. Our
2013. The past 6 months have been eventful            audit workload during the period included a
for the OIG and have offered learning oppor-          review of the Corporation’s implementation
tunities and challenges that our office has met       of its new systemic resolution responsibilities
head-on. Several highlights from the reporting        under the Dodd-Frank Wall Street Reform and
period follow and are discussed in more detail        Consumer Protection Act, conducted at the
in our report.                                        request of FDIC Chairman Gruenberg. We also
    Our investigators, in partnership with            focused attention on the risks inherent in the
the Department of Justice, the United States          Corporation’s IT environment, as part of our
Attorney’s Office for the Eastern District of         work under the Federal Information Security
Virginia, and law enforcement colleagues              Management Act of 2002. Results of both
successfully brought to justice four key figures      of those efforts will be presented in our next
involved in fraudulent activities contributing to     semiannual report.
the failure of the Bank of the Commonwealth,              In June, the FDIC Chairman and a number
the largest bank failure in the state of Virginia,    of senior executives from the FDIC participated
causing a loss of more than $333 million to           at our first OIG-wide conference since 2007.
the Deposit Insurance Fund. In May, after a           They shared perspectives on the challenges
10-week trial, a jury returned guilty verdicts        facing individual divisions in the Corporation
against three top executives and a favored            as well as enterprise-wide concerns, all of
borrower of the bank for their roles in a scheme      which informed our thinking with regard to
to mask non-performing assets for their own           planning our future assignments in a post-crisis
personal benefit and to the detriment of the          environment. While some risks to the Corpora-
bank. Later in the reporting period, three of the     tion’s success have subsided as the economy
individuals received sentences ranging from 50        has improved, new threats can emerge, and we
months to 17 years in prison and were ordered         will factor those issues into our portfolio of
to pay millions of dollars in restitution for their   work going forward.
criminal behavior.                                        At the end of September, Jon T. Rymer was
    Our audit organization underwent a peer           appointed Inspector General (IG) at the Depart-
review conducted by the Department of State           ment of Defense. Jon had served the FDIC
OIG during the reporting period. We received          with distinction since July 2006, and, as further
a rating of pass, indicating that our system          discussed in our farewell to Jon at the end of
of quality control was suitably designed and          this report, the OIG values his many contribu-
complied with to provide the OIG with reason-         tions to the Corporation, the IG community at
able assurance of performing and reporting            large, and our nation. I am proud to take on the
in conformity with applicable standards in all        leadership of the office now as Acting IG, in
                                                                                                          3
    accordance with the Vacancies Reform Act of
    1998.
        Finally, the OIG was affected by the lapse
    of funding that caused the government shut-
    down in early October. Although the Corpora-
    tion was spared the effects of the funding lapse,
    as an appropriated entity within the Corpora-
    tion, the OIG faced 16 days during which all
    but a few staff members were furloughed.
    As Acting IG at that time, I appreciated the
    unwavering commitment of all OIG staff. Their
    dedication to public service was, and continues
    to be, inspiring, and we have successfully
    resumed OIG operations during the past weeks.
        I am grateful for the continuing support
    of OIG staff and FDIC senior leadership and
    management as I serve as the FDIC’s Acting
    IG. As we approach the coming year, we reaf-
    firm our commitment to the IG mission and
    look forward to tackling the new challenges
    that inevitably await us.




       Fred W. Gibson, Jr.
       Acting Inspector General
       October 2013




4
T   Table of Contents


Acting Inspector General’s Statement.................................................. 3
Highlights and Outcomes..................................................................... 6
Strategic Goal Areas
    Supervision: Assist the FDIC to Ensure the Nation’s
1   Banks Operate Safely and Soundly................................................. 11
    Insurance: Help the FDIC Maintain the Viability of the
2   Insurance Fund................................................................................. 23
    Consumer Protection: Assist the FDIC to Protect
3   Consumer Rights and Ensure Customer Data
    Security and Privacy........................................................................ 25
    Receivership Management: Help Ensure that the FDIC
4   Efficiently and Effectively Resolves Failing Banks and
    Manages Receiverships................................................................... 28
    Resources Management: Promote Sound Governance
5   and Effective Stewardship and Security of Human,
    Financial, Information Technology, and Physical Resources......... 32
    OIG Resources Management: Build and Sustain a
6   High-Quality Staff, Effective Operations, OIG Independence,
    and Mutually Beneficial Working Relationships............................. 38
Cumulative Results (2-year period)................................................... 45
Fiscal Year 2013 Performance Report................................................ 46
Reporting Requirements..................................................................... 53
Appendix 1: Information Required by the Inspector General Act
of 1978, as amended........................................................................... 54
Appendix 2: Information on Failure Review Activity....................... 58
Appendix 3: Peer Review Activity..................................................... 60
Congratulations and Farewell............................................................. 62
Farewell to Former IG Jon T. Rymer.................................................. 64
Abbreviations and Acronyms............................................................. 66




                                                                                                         5
Highlights and Outcomes



         The OIG works to achieve five strategic goals     of bank fraud, mortgage fraud, and other finan-
     that are closely linked to the FDIC’s mission,        cial services working groups also supported this
     programs, and activities, and one that focuses        goal. Particularly noteworthy results from our
     on the OIG’s internal business and management         casework include the pleas and sentencings of
     processes. These highlights show our progress in      a number of former senior bank officials and
     meeting these goals during the reporting period. A    bank customers involved in fraudulent activities
     summary of our completed work, along with refer-      that undermined the institutions and, in some
     ences to selected ongoing assignments is presented    cases, contributed to the institutions’ failures.
     below.                                                For example, in a case involving the largest
        Strategic Goal 1 – Supervision:	                   bank failure in Virginia, following a 10-week
     Assist the FDIC to Ensure the Nation’s Banks          trial, three top bank executives and a favored
     Operate Safely and Soundly                            borrower of the Bank of the Commonwealth
                                                           were found guilty for their roles in a scheme to
         Our work in helping to ensure that the            mask non-performing assets for their own benefit
     nation’s banks operate safely and soundly takes       and to the detriment of the bank. Three of the
     the form of audits, investigations, evaluations,      four had received stiff sentences as of the end
     and extensive communication and coordination          of the reporting period. The former executive
     with FDIC divisions and offices, law enforce-         vice president and commercial loan officer was
     ment agencies, other financial regulatory OIGs,       sentenced to 17 years in prison and ordered to
     and banking industry officials. In support of this    pay restitution of nearly $332 million, joint and
     goal, during the reporting period, the Inspector      several with co-conspirators. The Chief Executive
     General testified before the Senate Committee         Officer’s son was sentenced to 8 years in prison
     on Banking, Housing, and Urban Affairs on             and ordered to pay $2.4 million in restitution
     lessons learned from the financial crisis related     to the FDIC and forfeit more than $4 million in
     to community banks. He summarized the find-           proceeds from the scheme. The favored borrower,
     ings in our Comprehensive Study on the Impact         a real estate developer, was sentenced to more
     of the Failure of Insured Depository Institutions     than 4 years in prison and ordered to pay restitu-
     (EVAL-13-002) and noted that we had made 7            tion to the FDIC of nearly $5 million.
     recommendations to strengthen certain super-
                                                               Also of note during the reporting period were
     visory activities and ongoing resolution efforts.
                                                           several successful mortgage fraud cases. In one
     We also completed 12 failure reviews of institu-
                                                           case, a realtor was sentenced to 37 months in
     tions whose failures caused losses to the Deposit
                                                           prison to be followed by 5 years of supervised
     Insurance Fund of less than the threshold of $150
                                                           release and ordered to pay restitution of nearly
     million if failing after January 1, 2012 and deter-
                                                           $6 million. A mortgage broker in another case
     mined whether unusual circumstances existed that
                                                           was sentenced to 12 months in prison, 12 months
     would warrant an in-depth review in those cases.
                                                           of home confinement, and ordered to pay nearly
         Ongoing audit and evaluation work in this         $5 million in restitution for her role in defrauding
     goal area at the end of the reporting period          multiple financial institutions.
     included an audit of the FDIC’s response to Bank
                                                               The Office of Investigations also continued its
     Secrecy Act and anti-money laundering concerns
                                                           close coordination and outreach with the Division
     identified at FDIC-supervised institutions and an
                                                           of Risk Management Supervision (RMS), the
     evaluation of the financial regulatory agencies’      Division of Resolutions and Receiverships, and
     programs for pursuing enforcement actions and         the Legal Division by way of attending quarterly
     professional liability claims that we are conduct-    meetings, regional training forums, and regularly
     ing jointly with other financial regulatory OIGs.     scheduled meetings with RMS and the Legal
         With respect to investigative work, as a          Division to review Suspicious Activity Reports
     result of cooperative efforts with U.S. Attorneys     and identify cases of mutual interest. We have
     throughout the country, numerous individuals          strengthened our process for regular coordination
     were prosecuted for financial institution fraud,      of enforcement action matters with the Legal
     and we also successfully combated a number of         Division and RMS, a step that has proven to be
     mortgage fraud schemes. Our efforts in support        mutually beneficial. (See pages 11-22.)
6
                                                                             Highlights and Outcomes



  Strategic Goal 2 – Insurance: Help the FDIC              Strategic Goal 4 – Receivership Manage-
Maintain the Viability of the Insurance Fund             ment: Help Ensure that the FDIC Efficiently
    We did not conduct specific assignments to           and Effectively Resolves Failing Banks and
address this goal area during the reporting period.      Manages Receiverships
However, our audit and evaluation work in support            We completed two assignments in this goal
of Goal 1 fully supports this goal, as does the          area during the reporting period. That is, we
investigative work highlighted above. In both cases,     conducted an audit of the Division of Resolutions
our work can serve to prevent future losses to the       and Receiverships’ resolution planning, deter-
insurance fund by way of findings and observations       mining that the FDIC had established controls
that can help to prevent future failures, and the        to identify and manage risks associated with the
deterrent aspect of investigations and the ordered       resolution of failing depository institutions. We
restitution that may help to mitigate an institution’s   also completed work on a structured sale involving
losses and losses to the Deposit Insurance Fund.         MountainView Public Private Investment I, LLC,
(See pages 23-24.)                                       and single-family residential assets, wherein we
   Strategic Goal 3 – Consumer Protection:               did not identify any issues with regard to comply-
Assist the FDIC to Protect Consumer Rights and           ing with the agreement but did recommend actions
Ensure Customer Data Security and Privacy                to enhance MountainView’s controls.

    We continued an audit related to the FDIC’s              We would also note that in connection with the
actions to address consumer protection violations        FDIC’s new resolution authority for systemically
and deficiencies. Additionally, we are coordinating      important financial institutions, the Dodd-Frank
with OIG counterparts in planning an assignment to       Wall Street Reform and Consumer Protection Act
examine the progress that the prudential regulators      (Dodd-Frank Act) requires that the FDIC OIG
and the Consumer Financial Protection Bureau have        conduct, supervise, and coordinate audits and
made in establishing coordination for the many           investigations of the liquidation of any covered
consumer protection responsibilities that the various    financial company by the Corporation as receiver
parties carry out.                                       under Title II of the Act. We continued efforts to
                                                         ensure we are prepared for such an eventuality.
    Our Office of Investigations also supports
consumer protection through its work. For example,           From an investigative standpoint, our Elec-
during the reporting period, as a result of an inves-    tronic Crimes Unit continued to support investiga-
tigation, a Houston businessman pleaded guilty for       tive activities related to closed banks by providing
his role in a fraudulent investment scheme to steal      computer forensic support in ongoing fraud
about $1 million from elderly investors. As part of      investigations. (See pages 28-31.)
the scheme, his salesmen sold unregistered securi-           Strategic Goal 5 – Resources Management:
ties—collateral debt obligations—falsely claiming        Promote Sound Governance and Effective
they were fully insured by either the FDIC or            Stewardship and Security of Human, Finan-
Lloyds of London.                                        cial, IT, and Physical Resources
    Also of note, our Electronic Crimes Unit                 In support of this goal area, during the report-
responded to instances where fraudulent emails           ing period, we issued the results of our review of
purportedly affiliated with the FDIC were used to        the FDIC’s compliance with energy management
entice consumers to divulge personal information         requirements and made eight recommendations to
and/or make monetary payments. Working with              strengthen the FDIC’s energy efficiency measures
the Corporation’s Division of Information Technol-       and programs, and its compliance with applicable
ogy, our investigators seek to protect consumers         legislation and reporting requirements. We also
by dismantling such schemes. In further support          completed a review of the FDIC’s controls over
of consumer protection, the OIG also continued to        business-unit led application development activi-
respond to a number of inquiries from the public,        ties. In that review, we highlighted risks presented
received both through our Hotline and through            by such activities and made three recommenda-
other channels. We addressed about 180 such              tions to enhance related risk management proce-
inquiries during the past 6-month period. (See           dures and information technology (IT) governance
pages 25-27.)                                            processes. In connection with the Dodd-Frank Act,
                                                                                                                7
Highlights and Outcomes



     we issued the results of a sixth coordinated review     evaluation services to the OIG to supplement our
     of the status of the implementation activities of the   efforts and provide additional subject-matter exper-
     Joint Implementation Plan prepared by the Board         tise. We continued use of the Inspector General
     of Governors of the Federal Reserve System, the         feedback form for audits and evaluations that
     FDIC, the Office of the Comptroller of the Curren-      focuses on overall assignment quality elements,
     cy, and the Office of Thrift Supervision.               including time, cost, and value.
         At the end of the reporting period, we were             We encouraged individual growth through
     undertaking work in the areas of IT project             professional development by supporting individu-
     management, controls for safeguarding sensitive         als in our office pursuing certified public account-
     information submitted under the Dodd-Frank Act,         ing and other professional certifications. Our
     and our 2013 audit of the FDIC’s information            mentoring program continued to further develop a
     security management efforts.                            strong cadre of OIG resources. We supported OIG
                                                             staff members taking FDIC leadership training
         We promoted integrity in FDIC internal opera-
                                                             courses. We also employed interns on a part-time
     tions through ongoing OIG Hotline and other refer-
                                                             basis to promote their development and assist us in
     rals and coordination with the FDIC’s divisions
                                                             our work.
     and offices, including corporate ethics officials, as
     warranted. (See pages 32-37.)                                Our office continued to foster positive stake-
                                                             holder relationships by way of Inspector General
        Strategic Goal 6 – OIG Resources Manage-
                                                             and other OIG executive meetings with senior
     ment: Build and Sustain a High-Quality OIG
                                                             FDIC executives; presentations at Audit Commit-
     Staff, Effective Operations, OIG Indepen-
                                                             tee meetings; congressional interaction; coordina-
     dence, and Mutually Beneficial Working
                                                             tion with financial regulatory OIGs, other members
     Relationships
                                                             of the Inspector General community, other law
         To ensure effective and efficient manage-           enforcement officials, and the U.S. Government
     ment of OIG resources, we continued to focus on         Accountability Office (GAO). The Inspector
     a number of internal initiatives. We formed our         General served in key leadership roles as the Chair
     Workplace Excellence Council, in concert with the       of the Council of the Inspectors General on Integ-
     FDIC’s efforts to promote excellence in all corpo-      rity and Efficiency Audit Committee; Vice Chair
     rate divisions and offices. We closely monitored        of the Council of Inspectors General on Financial
     staffing and tracked OIG spending, particularly         Oversight, as established by the Dodd-Frank Act;
     costs involved in travel and procurements. We           as a Member of the Comptroller General’s Advi-
     explored options for a better system to capture         sory Council on Government Auditing Standards,
     data on our investigative cases. On an office-wide      and as Chair of the Green Book Advisory Council.
     level, we re-examined and updated our policies and      Senior OIG executives were speakers at a number
     procedures and enhanced our records management          of professional organization and government
     and disposition activities. We also provided our        forums, for example those sponsored by the
     Fiscal Year 2014 budget to interested Congressio-       Federal Financial Institutions Examination Coun-
     nal Committees. This budget reflects $34.6 million      cil, Department of Justice, American Conference
     to support 130 full-time equivalents, no increase       Institute, Federal Audit Executive Council, GAO,
     from our Fiscal Year 2013 request.                      and American Institute of Certified Public Accoun-
         We continued internal quality assurance             tants. The OIG participated in corporate diversity
     efforts, including issuing our audit/evaluation         events and on the Chairman’s Diversity Advisory
     quality assurance plan to cover the period October      Council. We continued to use our public inquiry
     2013–March 2016 to ensure quality in all audit and      intake system to handle communications with the
     attestation engagement work and evaluations, in         public and maintained and updated the OIG Web
     keeping with government auditing standards and          site to respond to the public and provide easily
     Quality Standards for Inspection and Evaluation.        accessible information to stakeholders interested in
     We also issued our Quality Control Review of            our office and the results of our work.
     the OIG’s generally accepted government audit-              In the area of risk management, in connection
     ing standards assignments—2012. We oversaw              with SAS 99 and the annual audit of the FDIC’s
     contracts with qualified firms to provide audit and     financial statements, we provided preliminary
8
                                                      Highlights and Outcomes



thoughts on the risk of fraud at the FDIC to GAO.
We gathered information for the OIG’s annual
assurance statement to the FDIC Chairman regard-
ing our efforts to meet internal control require-
ments. We invited leadership of the FDIC’s driver
divisions to speak at an OIG conference to share
their perspectives on key risks and also attended
meetings of various corporate committees to
further monitor risks at the Corporation and tailor
OIG work accordingly. We shared OIG perspec-
tives on risk areas with senior FDIC leadership.
In keeping with the Reports Consolidation Act
of 2000, we monitored areas that we identified as
management and performance challenges facing
the Corporation for inclusion in its annual report.
(See pages 38-44.)




                                                                            9
Significant Outcomes




     Significant Outcomes
     (April 1, 2013 – September 30, 2013)
     Audit and Evaluation Reports Issued                                                                                                                                        5
     Questioned Costs                                                                                                                                                           0
     Nonmonetary Recommendations                                                                                                                                              15
     Investigations Opened                                                                                                                                                    27
     Investigations Closed                                                                                                                                                    31
     OIG Subpoenas Issued                                                                                                                                                     14
     Judicial Actions
     	Indictments/Informations                                                                                                                                                85
     	Convictions                                                                                                                                                             73
     	Arrests                                                                                                                                                                 28
     OIG Investigations Resulted in:
     	   Fines of                                                                                                                                                     $17,000
     	   Restitution of0
     	   Asset Forfeitures of                                                                                                                                      6,780,660
     Total                                                                                                                                               $504,016,069
     Cases Referred to the Department of Justice (U.S. Attorneys)                                                                                                             27
     Cases Referred to FDIC Management                                                                                                                                          1
     Proposed Regulations and Legislation Reviewed                                                                                                                              6
     Proposed FDIC Policies Reviewed                                                                                                                                            8
     Responses to Requests Under the Freedom of Information Act or Privacy Act                                                                                                  7




10
Strategic Goal 1:
The OIG Will Assist the FDIC
to Ensure the Nation’s Banks
Operate Safely and Soundly




T        The Corporation’s supervision program
     promotes the safety and soundness of FDIC-
     supervised insured depository institutions.
     The FDIC is the primary federal regulator for
     approximately 4,346 FDIC-insured, state-
     chartered institutions that are not members of
     the Board of Governors of the Federal Reserve
     System (FRB)—generally referred to as “state
                                                       highest risks. Part of the FDIC’s overall respon-
                                                       sibility and authority to examine banks for
                                                       safety and soundness relates to compliance with
                                                       the Bank Secrecy Act, which requires financial
                                                       institutions to keep records and file reports on
                                                       certain financial transactions. An institution’s
                                                       level of risk for potential terrorist financing and
                                                       money laundering determines the necessary
                                                       scope of a Bank Secrecy Act examination.
     non-member” institutions. Historically, the           The passage of the Dodd-Frank Act brought
     Department of the Treasury [the Office of the     about significant organizational changes to the
     Comptroller of the Currency (OCC) and the         FDIC’s supervision program. In April 2013,
     Office of Thrift Supervision (OTS)] or the FRB    the monitoring (Oversight and Risk Analytics
     supervised other banks and thrifts, depend-       Branches) function for systemically important
     ing on the institution’s charter. The winding     financial institutions (SIFIs) within the Office
     down of the OTS under the Dodd-Frank Wall         of Complex Financial Institutions (OCFI)
     Street Reform and Consumer Protection Act         was transferred to RMS and renamed as the
     (Dodd-Frank Act) resulted in the transfer         Complex Financial Institutions (CFI) Group
     of supervisory responsibility for about 60        (RMS-CFI Group). According to RMS, the
     state-chartered savings associations to the       institutional knowledge and analysis associ-
     FDIC. About 670 federally chartered savings       ated with the RMS-CFI Group are relevant
     associations were transferred to the OCC.         to OCFI’s 165(d) plan reviews, orderly
     As insurer, the Corporation also has back-up      liquidation, and international functions; thus,
     examination authority to protect the interests    collaboration across OCFI and the RMS-
     of the Deposit Insurance Fund (DIF) for 2,545     CFI Group will continue in order to further
     national banks, state-chartered banks that        integrate these functions going forward. The
     are members of the FRB, and those savings         RMS-CFI Group is primarily responsible
     associations now regulated by the OCC.            for monitoring risk within and across large,
                                                       complex financial companies for back-up
         The examination of the institutions that it
                                                       supervisory and resolution readiness purposes.
     regulates is a core FDIC function. Through
     this process, the FDIC assesses the adequacy          Prior to passage of the Dodd-Frank Act,
     of management and internal control systems        in the event of an insured depository institu-
     to identify, measure, monitor, and control        tion failure, the Federal Deposit Insurance
     risks; and bank examiners judge the safety and    (FDI) Act required the cognizant OIG to
     soundness of a bank’s operations. The examina-    perform a review when the DIF incurred a
     tion program employs risk-focused supervision     material loss. Under the FDI Act, a loss was
     for banks. According to examination policy, the   considered material to the insurance fund if it
     objective of a risk-focused examination is to     exceeded the greater of $25 million or 2 percent
     effectively evaluate the safety and soundness     of the failed institution’s total assets. With
     of the bank, including the assessment of risk     passage of the Dodd-Frank Act, the loss thresh-
     management systems, financial condition, and      old was increased to $200 million for losses
     compliance with applicable laws and regula-       that occurred January 1, 2010 through Decem-
     tions, while focusing resources on the bank’s     ber 31, 2011, $150 million for losses that
                                                                                                             11
Strategic
StrategicGoal
          Goal11




     occur for the period January 1, 2012 through           not only serves to punish the offender but can
     December 31, 2013, and $50 million thereafter.         also deter others from participating in similar
     The FDIC OIG performs the review if the FDIC           crimes. Our criminal investigations can also be
     is the primary regulator of the institution. The       of benefit to the FDIC in pursuing enforcement
     Department of the Treasury OIG and the OIG at          actions to prohibit offenders from continued
     the FRB perform reviews when their agencies            participation in the banking system. When
     are the primary regulators. These reviews iden-        investigating instances of financial institution
     tify what caused the material loss and evaluate        fraud, the OIG also defends the vitality of the
     the supervision of the federal regulatory agency       FDIC’s examination program by investigating
     (including compliance with the Prompt Correc-          associated allegations or instances of criminal
     tive Action requirements of the FDI Act), and          obstruction of bank examinations and by work-
     generally propose recommendations to prevent           ing with U.S. Attorneys’ Offices to bring these
     future failures. Importantly, under the Dodd-          cases to justice.
     Frank Act, the OIG is now required to review all           The OIG’s investigations of financial
     losses incurred by the DIF under the thresholds        institution fraud historically constitute about 90
     to determine (a) the grounds identified by the         percent of the OIG’s investigation caseload. The
     state or federal banking agency for appointing         OIG is also committed to continuing its involve-
     the Corporation as receiver and (b) whether any        ment in interagency forums addressing fraud.
     unusual circumstances exist that might warrant         Such groups include national and regional bank
     an in-depth review of the loss. Although the           fraud, check fraud, mortgage fraud, cyber fraud,
     number of failures continues to decline, the OIG       identity theft, and anti-phishing working groups.
     will conduct and report on material loss reviews
                                                            Additionally, when possible, the OIG engages
     and in-depth reviews of failed FDIC-supervised
                                                            in industry and other professional outreach
     institutions, as warranted, and continues to
                                                            efforts to keep financial institutions and others
     review all failures of FDIC-supervised institu-
                                                            informed on fraud-related issues and to educate
     tions for any unusual circumstances.
                                                            them on the role of the OIG in combating finan-
         While the OIG’s audits and evaluations             cial institution fraud.
     address various aspects of the Corporation’s
                                                               To assist the FDIC to ensure the nation’s
     supervision and examination activities, through
                                                            banks operate safely and soundly, the OIG’s
     their investigations of financial institution fraud,
                                                            2013 performance goals were as follows:
     the OIG’s investigators also play a critical role
     in helping to ensure the nation’s banks oper-              •	 Help ensure the effectiveness and efficien-
     ate safely and soundly. Because fraud is both          	      cy of the FDIC’s supervision program.
     purposeful and hard to detect, it can significant-      •	 Investigate and assist in prosecuting Bank
     ly raise the cost of a bank failure, and examiners     	 Secrecy Act violations, money launder-
     must be alert to the possibility of fraudulent         	 ing, terrorist financing, fraud, and other
     activity in financial institutions.                    	 financial crimes in FDIC-insured 		
         The OIG’s Office of Investigations works           	institutions.
     closely with FDIC management in RMS and
     the Legal Division to identify and investigate
     financial institution crime, especially vari-          OIG Work in Support of Goal 1
     ous types of bank fraud. OIG investigative                 In support of this goal, the Inspector Gener-
     efforts are concentrated on those cases of most        al (IG) testified before the Committee on Bank-
     significance or potential impact to the FDIC and       ing, Housing, and Urban Affairs, U.S. Senate,
     its programs. The goal, in part, is to bring a halt    regarding lessons learned during the crisis. Our
     to the fraudulent conduct under investigation,         office also continued the legislatively mandated
     protect the FDIC and other victims from further        review of all failed FDIC-regulated institu-
     harm, and assist the FDIC in recovery of its           tions causing losses to the DIF of less than the
     losses. Pursuing appropriate criminal penalties        threshold outlined in the Dodd-Frank Act to
12
                                                                                       Strategic Goal 1




determine whether circumstances surround-           	     ing additional controls for monitoring
ing the failures would warrant further review.      	     acquiring institutions’ commercial loan
These assignments are discussed below.              	     modification efforts and developing a more
    From an investigative perspective, in           	     formal strategy for mitigating the impact of
support of ensuring the safety and soundness        	     impending portfolio sales and shared-loss
                                                    	     agreement terminations on the DIF.
of the nation’s banks, we have pursued cases
involving fraud in both open and closed institu-        •	 Appraisals and Workouts. We made
tions. Results of such selected cases are also      	      several recommendations related to clarify-
described below. As in the past, we also discuss    	      ing how examiners should review institu-
several of our mortgage-fraud related investiga-    	      tions’ appraisal programs and strengthen-
tions. Importantly, our results would not be        	      ing examiner documentation requirements
possible without the collaboration and assis-       	      to more clearly define examination meth-
tance of our colleagues at the FDIC and our law     	      odologies and procedures performed to
enforcement partners throughout the country.        	      assess institutions’ appraisal and workout
                                                    	      programs. These recommendations should
IG Testimony on Lessons Learned for                 	      help to assure agency management that
Community Banks                                     	      examiners are consistently applying
                                                    	      relevant guidance.
    On June 13, 2013, the IG testified before the
Senate Committee on Banking, Housing, and               •	 Enforcement Orders. We recommended
Urban Affairs on the lessons learned from the       	      that the regulators study differences
financial crisis related to community banks. His    	      between the types of enforcement actions
testimony focused on the broad and compre-          	      that are used by the regulators and the
hensive study, required by Public Law 112-88,       	      timing of such actions to determine whether
that our office conducted on the impact of the      	      there are certain approaches that have
failure of insured depository institutions during   	      proven to be more effective in mitigating
the recent financial crisis (Comprehensive Study    	      risk and correcting deficiencies that should
                                                    	      be implemented by all three regulators.
on the Impact of the Failure of Insured Deposi-
tory Institutions (Report No. EVAL-13-002,          Failed Bank-Related Work
dated January 3, 2013)).
                                                        To a far lesser extent than during the height
    In summarizing the work that we had done,       of the financial crisis, we continued to conduct
the IG testified that while the regulators gener-   reviews of failed FDIC-supervised institutions.
ally implemented their policies appropriately,      We did not conduct any material loss reviews
our study identified certain areas for improve-     during the reporting period–that is, reviews
ment and issues warranting management               of institutions causing material losses to the
attention. The IG noted that in the interest of     DIF, as defined by the Dodd-Frank Act. We
strengthening the effectiveness of certain super-   did, however, complete 12 failed bank reviews
visory activities and helping ensure the success    of failed institutions with losses to the DIF of
of the FDIC’s ongoing resolution efforts, we        less than the threshold outlined in the Dodd-
had made seven recommendations. Five were           Frank Act. These reviews are listed in appendix
addressed specifically to the FDIC and two          2. None of these reviews identified unusual
were directed to the three regulators (OCC,         circumstances warranting additional OIG work.
FRB, FDIC). The regulators concurred with
the recommendations and proposed actions that       Successful OIG Investigations
adequately addressed the recommendations’           Uncover Financial Institution Fraud
intent. The recommendations involved the                As mentioned previously, the OIG’s Office
following areas:                                    of Investigations’ work focuses largely on fraud
    •	 Shared-Loss Agreement Program. We            that occurs at or impacts financial institutions.
	      made recommendations related to develop-     The perpetrators of such crimes can be those
                                                                                                          13
Strategic
StrategicGoal
          Goal11




     very individuals entrusted with governance            	     financial institution.
     responsibilities at the institutions—directors            •	 BOC’s executive vice president and
     and bank officers. In other cases, individuals        	      commercial loan officer until he was
     providing professional services to the banks,         	      terminated in December 2010, was convict-
     others working inside the bank, and custom-           	      ed of conspiracy to commit bank fraud,
     ers themselves are principals in fraudulent           	      false entry in a bank record, making a false
     schemes.                                              	      statement to a financial institution, and
         The cases discussed below are illustrative        	      misapplication of bank funds.
     of some of the OIG’s most important inves-              •	 The CEO’s son, who was employed by a
     tigative success during the reporting period.         	 wholly-owned BOC subsidiary as a vice
     These cases reflect the cooperative efforts of        	 president and mortgage loan specialist
     OIG investigators, FDIC divisions and offices,        	 until he was terminated in January 2011,
     U.S. Attorneys’ Offices, and others in the            	    was convicted of conspiracy to commit
     law enforcement community throughout the              	 bank fraud and unlawful participation in a
     country.                                              	loan.
         A number of our cases during the reporting         •	 One of the bank’s favored borrowers,
     period involve bank fraud, wire fraud, embez-         	 who owned and operated a residential and
     zlement, and mortgage fraud. Many involve             	 commercial development company as
     former senior-level officials and customers at        	 well as an employment staffing company,
     financial institutions who exploited internal         	 was convicted of conspiracy to commit
     control weaknesses and whose fraudulent               	 bank fraud, misapplication of bank funds,
     activities harmed the viability of the institutions   	 and making a false statement to a financial
     and ultimately contributed to losses to the DIF.      	institution.
     The OIG’s success in all such investigations
     contributes to ensuring the continued safety and          •	 A fifth defendant, former BOC executive
     soundness of the nation’s banks.                      	      vice president and chief lending officer,
                                                           	      was acquitted of all charges.
     Successful Bank Fraud Cases                               To explain the nature of the scheme–in
                                                           2006, leaders at BOC began an aggressive
     Bank of the Commonwealth Executives                   expansion beyond the bank’s traditional focus
     and Borrower Convicted and Sentenced                  on Norfolk and Virginia Beach to include
         On May 24, 2013, following a 10-week              branches in northeastern North Carolina and the
     trial, a jury returned guilty verdicts against        Outer Banks. By December 2009, the bank’s
     three top executives and a favored borrower           assets reached approximately $1.3 billion, built
     of the Bank of the Commonwealth (BOC)                 largely through brokered deposits. Evidence at
     Norfolk, Virginia, for their roles in a scheme        trial disclosed that many of BOC’s loans were
     to mask non-performing assets for their own           funded and administered without regard to
     personal benefit and to the detriment of BOC.         industry standards or the bank’s own internal
     This long-running scheme contributed to the           controls, and by 2008, the volume of the bank’s
     failure of BOC on September 23, 2011, the             troubled loans and foreclosed real estate soared.
     largest bank failure in the state of Virginia,        From 2008 through 2011, bank insiders masked
     causing a loss to the DIF of $333 million to          the bank’s true financial condition out of fear
     date. Verdicts were as follows:                       that the bank’s declining health would nega-
         •	 BOC’s chief executive officer (CEO) and        tively impact investor and customer confidence
     	      chairman of the Board for more than 3          and affect the bank’s ability to accept and
     	      decades, was convicted of conspiracy to        renew brokered deposits.
     	      commit bank fraud, bank fraud, false              To fraudulently hide the bank’s troubled
     	      entry in a bank record, unlawful participa-    assets, bank insiders overdrew demand deposit
     	      tion in a loan, and false statement to a       accounts to make loan payments, used funds
14
                                                                                             Strategic Goal 1




from related entities–at times without autho-       proceeds to make payments on his other loans
rization from the borrower–to make loan             at the bank, support his staffing company,
payments, used change-in-terms agreements to        Genesis Staffing, obtain thousands of dollars
make loans appear current, and extended new         in cash, make political donations, and make
loans or additional principal on existing loans     charitable contributions.
to cover payment shortfalls. In addition, the           In exchange for performing this favor,
bank insiders provided preferential financing       the management of the bank allowed him to
to troubled borrowers to purchase bank-owned        amass large overdrafts without question, have
properties. These troubled borrowers were           easy access to millions in loans, and gave his
already having difficulty making payments on        company thousands of dollars to work on bank-
their existing loans; however, the financing        owned property. As a result, he was able to prop
allowed the bank to convert a non-earning asset     up his failing businesses and portray himself as
into an earning asset, and the troubled borrow-     an upstanding, effective business leader. While
ers obtained cash at closing to make payments       engaged in the fraud, he was also attempting to
on their other loans at the bank or for their own   convince the Norfolk City Council to allow him
personal purposes.                                  to build a multi-million dollar office building in
    The troubled borrowers purchased or             the heart of Norfolk.
attempted to purchase property owned by                Later in the reporting period, several of the
bank insiders and the bank CEO’s son. These         defendants in this case were sentenced:
real estate loans were fraudulently funded by
the bank. The evidence also established that            •	 On September 16, 2013, the former
in late 2008, the CEO caused BOC to pay             	      executive vice president and commercial
approximately $100,000 in fraudulent invoices       	      loan officer was sentenced to serve 17
purportedly for BOC’s Suffolk, Virginia branch      	      years in prison to be followed by 5 years of
when, in fact, they were for renovations at the     	      supervised release. He was also ordered to
personal residence of the CEO’s son.                	      pay restitution of $331,860,955 joint and
                                                    	      several with his co-conspirators.
    With regard to the guilty verdict involving
the favored borrower, the evidence presented at         •	 The favored borrower, the real estate devel-
trial demonstrated that the developer, as presi-    	      oper, was sentenced on September 18, 2013
dent of Tivest Development & Construction,          	      to serve 50 months in prison to be followed
LLC, and other corporate entities, conspired        	      by 5 years of supervised release for
                                                    	      conspiracy to commit bank fraud, bank
with numerous BOC insiders to engage in
                                                    	      fraud, and making false statements to a
an illegal reciprocal relationship where he
                                                    	      financial institution. He was also ordered
performed favors to mask the bank’s loan
                                                    	      to pay restitution to the FDIC in the amount
losses in exchange for preferential treatment.
                                                    	      of $4,987,464.
For example, at the request of BOC insiders
and to prevent losses related to a failing loan,        •	 On September 30, 2013, the CEO’s son was
he arranged for Tivest to purchase a construc-      	      sentenced to 8 years in prison, to be
tion project in Virginia Beach, Virginia.           	      followed by 5 years of supervised release.
The bank gave Tivest a $4.1 million loan to         	      He was also ordered to pay $2.4 million in
purchase and renovate this property. During         	      restitution to the FDIC and forfeit more than
the funding of this loan, the developer caused      	      $4 million in proceeds from the scheme.
fraudulent construction draws to be submitted            Source: Request for assistance from the U.S. Attorney’s
to the bank, which certain bank insiders funded     Office for the Eastern District of Virginia. Responsible
                                                    Agencies: This investigation is being conducted by the
without inspecting whether the developer had        Federal Bureau of Investigation’s (FBI) Norfolk Field
completed the work. In one draw request, he         Office, Internal Revenue Service-Criminal Investigation
requested monies for a “final clean” when           Division (IRS-CI), the Special Inspector General for the
                                                    Troubled Asset Relief Program (SIGTARP), FDIC OIG,
the project stood as an empty shell wrapped         and FRB OIG. The case is being prosecuted by the U.S.
in building wrap. He used construction loan         Attorney’s Office for the Eastern District of Virginia.
                                                                                                                   15
Strategic
StrategicGoal
          Goal11




     Hotel Financier Enters Guilty Plea in                        Bank Senior Vice President Sentenced
     Bank Fraud Case Involving Integrity                              On April 5, 2013, a former senior vice
     Bank, Alpharetta, Georgia                                    president of Appalachian Community Bank,
         On July 1, 2013, a hotel financier pleaded               Ellijay, Georgia, was sentenced for his role
     guilty to conspiracy to commit bank fraud for                in a number of schemes to defraud the bank.
     his role in a scheme to defraud Integrity Bank,              He was sentenced to serve 70 months in
     Alpharetta, Georgia. The financier, along with               prison to be followed by 5 years of supervised
     two former bank officers, were previously                    release and was ordered to pay restitution of
     charged in a $30 million, 51-count indictment                $5,840,517. Previously, on August 22, 2012, he
     that included charges of bank fraud, receiv-                 had pleaded guilty to one count of conspiracy
     ing commissions or gifts for procuring loans,                to commit bank fraud. Appalachian failed on
     securities fraud, structuring deposits, and                  March 19, 2010.
     conspiracy to commit bank fraud. The two                         The senior vice president admitted that
     former bank executives have both pleaded                     he conspired with the former Appalachian
     guilty for their roles in the conspiracy. Integrity          CEO/president and others to arrange sham
     Bank failed on August 29, 2008. The hotel                    real estate transactions involving foreclosed
     financier’s sentencing hearing was scheduled                 property owned by Appalachian. Prior to
     for October 2013.                                            an FDIC examination in August 2009, the
         According to the charges and other infor-                two created two shell companies for the sole
     mation presented in court, the hotel financier               purpose of hiding approximately $3.7 million
     borrowed more than $40 million from the                      worth of Appalachian-owned real estate. GPH
     now-failed Integrity Bank in 2005 and 2006,                  Investments, LLC, purchased 11 properties
     allegedly to finance his interests in vari-                  from Appalachian; 90 percent of the purchase
     ous hotels around the country. One of these                  price came from Appalachian. At the same
     loans was to acquire and renovate the Casa                   time, PHL Investments, LLC, received a line
     Madrona Hotel, a luxury property overlook-                   of credit which accounted for the 10-percent
     ing the water in Sausalito, California. During               down payment, causing Appalachian to finance
     that time, the financier was bribing one of the              100 percent of the GPH purchase. The sham
     former bank executives, a former loan officer                transactions were designed to make it appear
     at Integrity, with hundreds of thousands of                  to FDIC examiners that these new loans were
     dollars. Although the financier did use some of              legitimate and performing.
     the money he received from Integrity for hotel                   Also, in April, 2009, the two former bank
     purposes, he never performed any renovations                 executives conspired to use shell corporations
     on the Casa Madrona. Instead, he used loan                   to purchase two condominiums in Panama City,
     draws to buy a private island in the Bahamas;                Florida. They caused Appalachian to finance the
     travel by private jet; and pay for Miami Heat                original purchase price of $566,000. Approxi-
     tickets, fancy jewelry, expensive cars, and a                mately 2 months later, they refinanced the
     mansion in Coconut Grove. The financier, the                 condominiums with Appalachian and received
     bank’s largest borrower, eventually defaulted                approximately $875,000, which was used to
     on his loans, contributing to Integrity Bank’s               service the original debt.
     failure. The former loan officer previously                      Finally, the former senior vice president
     pleaded guilty to conspiracy and tax evasion.                and other co-conspirators created Soak Creek
     Another Integrity bank official pleaded guilty               Partners, LLC (Soak Creek) for the sole purpose
     to securities fraud.                                         of buying and flipping property. In March,
         Source: The investigation was initiated based upon       2007, the former senior vice president caused
     information received from the FDIC RMS. Responsible          Appalachian to extend three $100,000 loans to a
     Agencies: This is a joint investigation with the FBI. The
     case is being prosecuted by the U.S. Attorney’s Office for   silent partner of Soak Creek. He failed to report
     the Northern District of Georgia.                            to the loan committee that the actual purpose of
16
                                                                                                     Strategic Goal 1




these three loans was to fund the down payment             sold approximately 70 lots in Seven Falls for
of approximately 5,000 acres in Tennessee.                 between $250,000 and $650,000 each. By 2008,
In April 2007, he caused Appalachian to wire               he began running out of money and needed
$7.2 million in the name of Soak Creek to a                a new source of funds. The developer had
Tennessee law firm that closed the purchase                numerous outstanding loans from the Bank of
of the 5,000 acres; this wire transfer caused              Asheville, and he was near his statutory lending
the Soak Creek account to be overdrawn by                  limit with the bank. From 2008 through 2010,
$7.2 million. Approximately 4 days later, Soak             he and two other developers, along with other
Creek sold the 5,000 acres to a Texas invest-              co-conspirators, developed the so-called Lot
ment company for approximately $9.3 million,               Loan Program and other schemes whereby
netting the former senior vice president a profit          they recruited straw borrowers to purchase lots
of approximately $2 million on the transaction.            and other various properties via bank loans,
In September 2007, he caused Appalachian to                the proceeds of which would be turned over to
wire transfer approximately $3 million in the              the conspirators. Most of the loans were from
name of Soak Creek to a Tennessee law firm to              the Bank of Asheville and Pisgah Community
fund the purchase of another 2,100-acre tract              Bank.
in Tennessee. The wire transfer caused Soak                    A bank insider, the former president of
Creek’s account to be overdrawn by approxi-                Pisgah Community Bank facilitated the approv-
mately $3 million. On the same day, Soak Creek             al of loans to the developers, concealing the true
sold the 2,100-acre tract to a Texas investment            risk of the Seven Falls-related loans from the
company for approximately $3.7 million. The                bank’s shareholders, auditors, and regulators.
former senior vice president realized a profit of          A real estate appraiser involved in the scheme
approximately $500,000 from that sale.                     prepared appraisal reports that included unsub-
     Source: This case was initiated based on a referral   stantiated inflated assessments, false statements,
from the FBI, Gainesville Resident Office. Responsible
                                                           and willfully omitted material facts—all to
Agencies: This is a joint investigation by the FDIC OIG,
SIGTARP, Federal Housing Finance Agency OIG, and the       inflate the value of the property at Seven Falls,
FBI. The case is being prosecuted by the U.S. Attorney’s   thereby misrepresenting collateral value to the
Office for the Northern District of Georgia.               banks. The certified public accountant involved
                                                           produced financial statements for borrowers that
Multiple Guilty Pleas in a Case Involv-
                                                           contained false information. He also promoted
ing the Bank of Asheville and Pisgah
                                                           Seven Falls and guaranteed millions of dollars
Community Bank, Both in Asheville,
                                                           in loans.
North Carolina
                                                               The aggregate fraud, which exceeded $23
    During the reporting period, two real estate
                                                           million, significantly contributed to the failures
developers, the former president of Pisgah
                                                           of the two banks involved.
Community Bank, a real estate appraiser, and a
                                                                Source: This investigation was initiated based on
certified public accountant all pleaded guilty for         information provided by the FDIC and the North Carolina
their roles in a case involving fraud at the Bank          Commissioner of Banks. Responsible Agencies: This is a
of Asheville and Pisagh Community Bank,                    joint investigation by the FBI, IRS-CI, and FDIC OIG. The
                                                           case is being prosecuted by the U.S. Attorney’s Office for the
both located in Asheville, North Carolina. Their           Western District of North Carolina.
scheme involved funding the ailing Seven Falls
Golf and River Club Development in Hender-                 Chicago Developer Sentenced for Bank
sonville, North Carolina, a property owned by              Fraud
another developer who was scheduled for trial                  On June 13, 2013, a commercial real estate
in October 2013.                                           developer was sentenced for his role in a
    Seven Falls was a residential develop-                 commercial bank fraud scheme through which
ment that this latter developer had purchased              he and a co-conspirator knowingly defrauded
in 2006 with a $25 million loan from the                   CIB Bank, Hillside, Illinois. The developer
National Bank of South Carolina. In 2007, he               was sentenced to serve 24 months in prison,
                                                                                                                            17
Strategic
StrategicGoal
          Goal11




     to be followed by 60 months of supervised                        previously pleaded guilty to wire fraud and
     release and was ordered to pay $48.8 million in                  money laundering.
     restitution. CIB Bank, regulated by the FDIC,                        In December 2006, the developer and anoth-
     became severely undercapitalized due in part to                  er individual, doing business as Spyglass Prop-
     the losses incurred from this scheme. It merged                  erties and Tradewest Development, obtained
     into and subsequently operated as part of First                  an $18.4 million construction loan from ANB
     Bank, Creve Coeur, Missouri, an FRB-regulated                    to purchase a 2-acre parcel of land and build
     financial institution.                                           an 82-unit condominium complex in Salt Lake
         The investigation was initiated based on                     City, Utah. In connection with the loan applica-
     information provided by RMS. The investiga-                      tion, they submitted 11 condominium purchase
     tion determined that the two co-conspirators                     reservation agreements to ANB that stated the
     obtained acquisition financing and renovation                    signers intended to purchase a condominium,
     financing loans through CIB Bank for two                         when in fact these individuals did not intend to
     commercial buildings in Chicago, Illinois. False                 purchase these condominiums. Loan proceeds
     representations were made to CIB Bank by                         were diverted and used to purchase vehicles
     both individuals regarding capital contribution                  and real estate, and to complete other projects
     requirements. They were required to contribute                   unrelated to the ANB loan.
     approximately $12 million to the projects and                         Source: FDIC Division of Resolutions and Receiver-
     presented documents to the bank indicating they                  ships. Responsible Agencies: This was a joint investigation
                                                                      by the FDIC OIG and the FBI. The case is being prosecuted
     had satisfied the requirement. However, the                      by the U.S. Attorney’s Office for the District of Utah.
     documents were fabricated, and the bank, as a
     result, provided nearly 100-percent financing.                   Washington Banker Pleads Guilty to
         The two men continued to make fraudulent                     Lying to Regulators
     representations on draw requests for renova-                        On August 21, 2013, the former chairman
     tions to one of the properties. They indicated                   and CEO of Summit Bank, Burlington,
     that they incurred costs associated with asbestos                Washington, pleaded guilty to one count of
     abatement, interior demolition, exterior masonry                 making a false entry in a report of an insured
     cleaning, scaffolding for masonry repair and                     bank. The former chairman and CEO, along
     replacement, and exterior stone restoration                      with his son, was charged in a criminal Infor-
     totaling in excess of $5.1 million, when the                     mation on August 15, 2013. Summit failed on
     actual cost incurred was less than $900,000.                     May 20, 2011.
     CIB Bank’s loss was approximately $48.8                              Summit Bank was a family-owned commu-
     million as a result of the two loans. While the                  nity bank in Skagit County, Washington, run
     real estate developer has been sentenced, his                    by the former chairman and CEO and his son,
     co-conspirator is a fugitive believed to be living               who was the bank’s president from 2005 to
     in Cali, Columbia.                                               April 2011. Summit Bank began running into
          Source: FDIC RMS. Responsible Agencies: This is a           difficulties when the economy and real estate
     joint investigation by the FDIC OIG and the IRS-CI. The
     case is being prosecuted by the U.S. Attorney’s Office for the   market took a downturn in 2008, resulting in
     Northern District of Illinois.                                   many borrowers becoming delinquent in their
                                                                      loan payments. In order to disguise the true
     Utah Real Estate Developer Sentenced                             amount of the past-due loans from regula-
         On September 4, 2013, a Utah real estate                     tors, the father and son orchestrated multiple
     developer was sentenced to serve 12 months                       schemes to make the loans appear to be current
     and 1 day in prison to be followed by 36 months                  so that they did not have to be reported on the
     of supervised release. He was also ordered to                    quarterly Call Reports used by regulators to
     pay restitution of $7 million to the FDIC as                     monitor the health and soundness of banks.
     Receiver for ANB Financial, N.A. (ANB). ANB                      The methods they used to make loans appear to
     was an institution regulated by OCC that closed                  be current at the end of each reporting period
     on May 9, 2008. The real estate developer had                    included overdrawing borrowers’ checking
18
                                                                                                       Strategic Goal 1




and savings accounts to make loan payments,                   proceeds; these agreements were not disclosed
granting change-in-terms agreements on past-                  to the banks. The bank officer then used the
due loans to extend payments, giving nominee                  proceeds he received from the borrowers for his
loans to family members with the proceeds                     own purposes. Further, he disguised the loans
going towards past-due loan payments, taking                  as commercial loans to avoid limitations the
collateral for other loans and using it to make               banks had placed on the types and amounts of
loan payments on the past-due loans, taking                   loans he could approve.
payments intended for other loans and misap-                      Responsible Agencies: This is an investigation by the
plying them to the past-due loans, advancing                  FDIC OIG. The case is being prosecuted by the U.S. Attor-
                                                              ney’s Office for the Northern District of Illinois, Western
on other loans to make the payments on the                    Division.
past-due loans, and lying to the Board of Direc-
tors about the true payment history of past-due               OIG Mortgage Fraud Cases
loans in order to get change-in-terms agree-                      Our office has successfully investigated a
ments approved. Many of these schemes were                    number of mortgage fraud cases over the past 6
carried out without the knowledge or consent of               months, several of which are described below.
the borrowers.                                                Perpetrators of these mortgage schemes are
    As part of a civil enforcement agreement                  receiving stiff penalties and restitution orders.
entered with the FDIC, which is incorporated                  Our involvement in such cases is often the
into the plea agreement, the former chairman                  result of our participation in a growing number
and CEO will pay $300,000 to the FDIC and                     of mortgage fraud task forces. Mortgage
agree to a lifetime prohibition from participat-              fraud took on new characteristics in the recent
ing in the conduct of the affairs of any federally            economic crisis as perpetrators tried to take
insured financial institution.                                advantage of an already bad situation. Such
     Source: This investigation was initiated based on        illegal activity can cause financial ruin to home-
information provided by the FDIC Legal Division’s             owners and local communities. It can further
Enforcement Section and RMS. Responsible Agencies: This
investigation was conducted by the FDIC OIG and the FBI.
                                                              impact local housing markets and the economy
This case is being prosecuted by the U.S. Attorney’s Office   at large. Mortgage fraud can take a variety of
for the Western District of Washington at Seattle.            forms and involve multiple individuals. The
                                                              following examples illustrate the nature of these
Bank Officer Sentenced for Bank Fraud                         fraudulent activities and the investigations we
    On August 23, 2013, a former bank offi-                   undertake to stop them.
cer was sentenced for bank fraud. The fraud
relates to providing false information on                     Prison Sentence in Mortgage Fraud Case
loans he originated and for receiving proceeds                    On August 27, 2013, a Maryland realtor
from the loans. He was sentenced to serve 28                  was sentenced to serve 37 months in prison to
months in prison to be followed by 36 months                  be followed by 5 years of supervised release
of supervised release. He was also ordered to                 for his role in a mortgage fraud scheme involv-
pay restitution of $1,081,553. Multiple banks                 ing losses of at least $5 million. He was also
were affected by the fraud, and the bank officer              ordered to pay restitution of $5,950,000.
had worked for each of them at different times                    The realtor and another co-conspirator used
during his career.                                            loan officers at Resource Mortgage, Pinnacle
    Between March 2005 and December 2009,                     Finance, and Newgate Mortgage to obtain loans
he approved loans and increases in loans                      for their straw buyers featuring 100-percent
for family members without disclosing the                     financing and no down payment. Resource
relationships to the banks. It was a further part             Mortgage of Maryland is a former subsidiary
of the scheme that he entered into agreements                 of Fulton Bank, NA. Resource Mortgage was
with the family member borrowers and other                    responsible for the origination of mortgage
borrowers so that in exchange for the loans,                  loans that were then sold to institutions includ-
they would provide him with some of the loan                  ing IndyMac, SunTrust, and Wells Fargo.
                                                                                                                            19
Strategic
StrategicGoal
          Goal11




         Our investigation disclosed that the realtor                Home Lenders, Inc., $574,885 to Aegis Mort-
     approached a number of straw buyers and told                    gage, $1,035,288 to Maribella, and $175,094 to
     them about a real estate investment opportunity                 People’s Choice. The restitution order is joint
     that only required good credit. The straw buyers                and several with her co-conspirators. Washing-
     would purchase properties at the realtor’s direc-               ton Mutual Bank and Fremont Investment &
     tion with no intent of occupying the properties.                Loan were among the financial institutions that
     The realtor offered to manage the properties as                 were victims of the scheme.
     rentals and promised to use the rent money to                       The mortgage broker conspired with two
     make mortgage payments. Many of the straw                       real estate investors and others to defraud the
     buyers purchased multiple properties. The straw                 financial institutions. She knowingly submitted
     buyers all claim to have provided the real-                     false information regarding down payments
     tor with accurate information regarding their                   and never disclosed personal enrichment or the
     employment and assets, but the loan applica-                    enrichment of her clients through a kickback
     tions all contain false information. The proper-                scheme that involved a number of real estate
     ties were all purchased as primary residences to                investors. The sellers/investors purchased
     take advantage of 100-percent financing and no                  foreclosed properties and minimally rehabili-
     down payment programs offered by the lenders.                   tated them. The sellers then entered into a verbal
     The loan files all contained some combination                   agreement with the broker to sell the houses.
     of inflated income, false employment, false                     The mortgage broker would obtain an inflated
     bank statements, false W-2s and paystubs, and                   appraisal which factored in the amount the
     forged signatures.                                              sellers wanted, the down payment needed, and
         In all, the realtor and others involved in                  kickbacks paid to her or the purchaser of the
                                                                     house. All of the houses fell into foreclosure,
     the scheme recruited approximately 30 straw
                                                                     and the total amount of related fraudulent real
     buyers, arranged more than 50 real estate
                                                                     estate transactions was approximately
     transactions, caused more than $5.9 million in
                                                                     $8 million.
     losses to financial institutions, took in excess
     of $333,000 in real estate commissions, and                         Two of the real estate investors involved
     collected over $1.2 million in extra money from                 pleaded guilty in 2011. One of them was also
     the transactions in the form of payments for                    sentenced during the reporting period for mail
     renovations that were never completed.                          fraud and his role in the mortgage fraud scheme.
          Source: This investigation was initiated based on a        He was sentenced to serve 12 months in prison
     request for assistance from the United States Secret Service,   to be followed by 12 months of home confine-
     Washington Field Office, Washington, DC, and the Criminal       ment. He was also ordered to pay restitution of
     Investigation Division of the Maryland Attorney General’s
     Office. Responsible Agencies: This is a joint investiga-
                                                                     $3,671,038.
     tion with the United States Secret Service, the Criminal             Source: Referral from the U.S. Attorney’s Office for
     Investigation Division of the Maryland Attorney General’s       the Central District of Illinois. Responsible Agencies: This
     Office, and the FDIC OIG. This case is being prosecuted         investigation was conducted by the FDIC OIG, FBI, and the
     by the U.S. Attorney’s Office for the District of Maryland,     U.S. Postal Inspection Service. The case is being prosecuted
     Greenbelt, Maryland.                                            by the U.S. Attorney’s Office for the Central District of
                                                                     Illinois.
     Mortgage Broker Sentenced for Mail
     Fraud
         On June 17, 2013, a mortgage broker was
     sentenced for a mail fraud conviction and her
     role in a mortgage fraud scheme. The broker
     was sentenced to serve 12 months in prison to
     be followed by 12 months of home confinement.
     The broker was also ordered to pay restitution
     of $4,996,276 to be distributed as follows:
     $2,798,359 to the FDIC, $412,650 to Accredited
20
                                                                                     Strategic Goal 1




Strong
StrongPartnerships
       Partnershipswith
                   withLaw
                        LawEnforcement
                           EnforcementColleagues
                                       Colleagues

The OIG has partnered with various U.S. Attorneys’ Offices throughout the country in
bringing to justice individuals who have defrauded the FDIC or financial institutions
within the jurisdiction of the FDIC, or criminally impeded the FDIC’s examination and
resolution processes. The alliances with the U.S. Attorneys’ Offices have yielded positive
results during this reporting period. Our strong partnership has evolved from years of
hard work in pursuing offenders through parallel criminal and civil remedies resulting
in major successes, with harsh sanctions for the offenders. Our collective efforts have
served as a deterrent to others contemplating criminal activity and helped maintain the
public’s confidence in the nation’s financial system.
During the reporting period, we partnered with U.S. Attorneys’ Offices in the following
geographic areas: Alabama, Arizona, Arkansas, California, Colorado, District of Columbia,
Florida, Georgia, Illinois, Iowa, Kansas, Kentucky, Louisiana, Maryland, Massachusetts,
Michigan, Minnesota, Mississippi, Missouri, Nebraska, Nevada, New Jersey, New Mexico,
New York, North Carolina, North Dakota, Ohio, Oklahoma, Oregon, Pennsylvania, South
Carolina, South Dakota, Tennessee, Texas, Utah, Virginia, Washington, West Virginia,
Wisconsin, and Puerto Rico.
We also worked closely with the Department of Justice; FBI; other OIGs; other federal,
state, and local law enforcement agencies; and FDIC divisions and offices as we
conducted our work during the reporting period.




                                                                                                   21
Strategic Goal 1




          Keeping Current with Financial Fraud Activities Nationwide
          The FDIC OIG participates in the following bank fraud, mortgage fraud, and other working groups and task
          forces throughout the country. We benefit from the perspectives, experience, and expertise of all parties
          involved in combating criminal activity and fraudulent schemes nationwide.
          OIG Headquarters        National Bank Fraud Working Group--National Mortgage Fraud Working Sub-group.
          New York Region         The Northern Virginia Real Estate Fraud Initiative Working Group, Manassas, Virginia;
                                  Maine Suspicious Activity Report (SAR) Review Team; Maryland Mortgage Fraud Task
                                  Force; New England Mortgage Fraud Working Group; Concord New Hampshire and
                                  Boston Massachusetts SAR Review Meetings; Philadelphia Mortgage Fraud Working
                                  Group; DC National SAR Review Team.
          Atlanta Region          Middle District of Florida Mortgage and Bank Fraud Task Force; Southern District of
                                  Florida Mortgage Fraud Working Group; Northern District of Georgia Mortgage Fraud
                                  Task Force; Eastern District of North Carolina Bank Fraud Task Force; Northern District
                                  of Alabama Financial Fraud Working Group.
          Kansas City Region      St. Louis Mortgage Fraud Task Force; Kansas City Mortgage Fraud Task Force; Kansas
                                  City Financial Crimes Task Force; Minnesota Inspector General Council meetings;
                                  Kansas City SAR Review Team; Springfield, Missouri SAR Review Team; Nebraska SAR
                                  Review Team; Iowa Mortgage Fraud Working Group.
          Chicago Region          Illinois Mortgage Fraud Working Group; Dayton Area Financial Crimes Task Force;
                                  Illinois Fraud Working Group; Central District of Illinois SAR Review Team; Detroit SAR
                                  Review Team; Financial Investigative Team, Milwaukee, Wisconsin.

          San Francisco Region    FBI Seattle Mortgage Fraud Task Force; Fresno Mortgage Fraud Working Group for
                                  the Eastern District of California; Sacramento Mortgage Fraud Working Group for the
                                  Eastern District of California; Sacramento SAR Working Group; Los Angeles Mortgage
                                  Fraud Working Group for the Central District of California; Orange County Financial
                                  Crimes Task Force-Central District of California.

          Dallas Region           SAR Review Team for Northern District of Mississippi; SAR Review Team for Southern
                                  District of Mississippi; Oklahoma City Financial Crimes SAR Review Work Group;
                                  North Texas Mortgage Fraud Working Group; Eastern District of Texas Mortgage
                                  Fraud Task Force; Texas Attorney General’s Residential Mortgage Fraud Task Force;
                                  Houston Mortgage Fraud Task Force; Austin SAR Review Working Group.

          Electronic Crimes       Washington Metro Electronic Crimes Task Force, Botnet Threat Task Force, High
          Unit                    Technology Crime Investigation Association, Cyberfraud Working Group; Council of
                                  the Inspectors General on Integrity and Efficiency Information Technology Subcom-
                                  mittee; National Cyber Investigative Joint Task Force.




22
Strategic Goal 2:
The OIG Will Help the FDIC
Maintain the Viability of
the Insurance Fund




F         Federal deposit insurance remains a funda-
     mental part of the FDIC’s commitment to
     maintain stability and public confidence in the
     nation’s financial system. The FDIC insures
     bank and savings association deposits. As insur-
     er, the FDIC continually evaluates and monitors
     changes in the economy, financial markets,
     and the banking system, to ensure that the DIF
                                                           trends and risks are communicated to the finan-
                                                           cial industry, its supervisors, and policymakers
                                                           through a variety of regularly produced publi-
                                                           cations and ad hoc reports. Risk-management
                                                           activities include approving the entry of new
                                                           institutions into the deposit insurance system,
                                                           off-site risk analysis, assessment of risk-based
                                                           premiums, and special insurance examinations
                                                           and enforcement actions. In light of increas-
                                                           ing globalization and the interdependence of
     remains viable to protect all insured depositors.
                                                           financial and economic systems, the FDIC also
     To maintain sufficient DIF balances, the FDIC
                                                           supports the development and maintenance of
     collects risk-based insurance premiums from
                                                           effective deposit insurance and banking systems
     insured institutions and invests deposit insurance
                                                           world-wide.
     funds.
                                                               Over recent years, the consolidation of the
         Since year-end 2007, the failure of FDIC-
                                                           banking industry resulted in fewer and fewer
     insured institutions has imposed total estimated
                                                           financial institutions controlling an ever expand-
     losses of more than $89 billion on the DIF. The
                                                           ing percentage of the nationís financial assets.
     sharp increase in bank failures over the past
                                                           The FDIC has taken a number of measures
     several years caused the fund balance to become
                                                           to strengthen its oversight of the risks to the
     negative. The DIF balance turned negative in the
                                                           insurance fund posed by the largest institutions.
     third quarter of 2009 and hit a low of negative
                                                           Its key program involves the assignment of
     $20.9 billion in the following quarter.
                                                           dedicated examination staff at the largest state
         In the aftermath of the financial crisis, FDIC-   non-member banks and all insured depository
     insured institutions continue to make gradual         institutions, regardless of charter type, with total
     but steady progress. In light of such progress,       assets greater than $100 billion. According to
     the DIF balance has continued to increase. As of      RMS, on-site supervision is augmented with
     September 30, 2013, the DIF balance was $40.8         close coordination with the other federal bank-
     billion. While the fund is considerably stronger      ing regulatory agencies, comprehensive quar-
     than it has been, the FDIC must continue to           terly off-site reviews, the Shared National Credit
     monitor the emerging risks that can threaten          Program, and other off-site monitoring systems.
     fund solvency in the interest of continuing to        Annual supervisory plans are developed for
     provide the insurance coverage that depositors        each state non-member bank with total assets
     have come to rely upon.                               over $10 billion. Supervisory Risk–Resolution
         The FDIC, in cooperation with the other           Activities Plans are developed for each SIFI–
     primary federal regulators, proactively identifies    financial companies with over $100 billion in
     and evaluates the risk and financial condition of     total assets. This collaborative effort between the
     every insured depository institution. The FDIC        RMS-CFI Group and OCFI includes an over-
     also identifies broader economic and financial        view of the consolidated company’s strategic
     risk factors that affect all insured institutions.    direction, the adequacy of the primary federal
     The FDIC is committed to providing accurate           regulators’ ratings, review of resolution activi-
     and timely bank data related to the financial         ties, and a prioritization of the risks as well as an
     condition of the banking industry. Industry-wide      action plan to address these risks.
                                                                                                                   23
Strategic Goal 2




         Importantly, with respect to the largest
     institutions, Title II of the Dodd-Frank Act was
     intended to help address the notion of “Too Big
     to Fail.” The largest institutions will be subject-
     ed to the same type of market discipline facing
     smaller institutions. Title II provides the FDIC
     authority to wind down systemically important
     bank holding companies and non-bank financial
     companies as a companion to the FDIC’s author-
     ity to resolve insured depository institutions.
         To help the FDIC maintain the viability of
     the DIF, the OIG’s 2013 performance goal was
     as follows:
         •	 Evaluate corporate programs to identify and
     	      manage risks in the banking industry that
     	      can cause losses to the fund.
     OIG Work in Support of Goal 2
         We did not complete work specifically relat-
     ed to this goal area during the reporting period.
     We would note, however, that the OIG’s work
     referenced in Goal 1 fully supports the goal of
     helping the FDIC maintain the viability of the
     DIF. For example, each institution for which
     we conduct a material loss review, in-depth
     review, or a failed bank review by definition,
     causes a loss to the DIF. The OIG’s failed bank
     work is designed to help prevent such losses
     in the future. Similarly, investigative activity
     described in Goal 1 fully supports the strategic
     goal of helping to maintain the viability of the
     DIF. The OIG’s efforts often lead to successful
     prosecutions of fraud in financial institutions,
     with restitution paid back to the FDIC when
     possible, and/or deterrence of fraud that can
     cause losses to the fund.




24
Strategic Goal 3:
The OIG Will Assist the FDIC to Protect
Consumer Rights and Ensure Customer
Data Security and Privacy



                                                             fairly. The FDIC carries out its role by provid-
         Consumer protection laws are important
                                                             ing consumers with access to information about
     safety nets for Americans. The U.S. Congress
                                                             their rights and disclosures that are required
     has long advocated particular protections for
                                                             by federal laws and regulations and examin-
     consumers in relationships with banks. The
                                                             ing the banks where the FDIC is the primary
     following are but a sampling of Acts seeking to
                                                             federal regulator to determine the institu-
     protect consumers:                                      tions’ compliance with laws and regulations
         •	 The Community Reinvestment Act                   governing consumer protection, fair lending,
     	      encourages federally insured banks to meet       and community investment. As a means of
     	      the credit needs of their entire community.      remaining responsive to consumers, the FDIC’s
         •	 The Equal Credit Opportunity Act                 Consumer Response Center investigates
     	      prohibits creditor practices that discriminate   consumer complaints about FDIC-supervised
     	      based on race, color, religion, national         institutions and responds to consumer inquiries
     	      origin, sex, marital status, or age.             about consumer laws and regulations and bank-
                                                             ing practices.
      •	 The Home Mortgage Disclosure Act was
     	 enacted to provide information to the public              The FDIC is experiencing and implement-
     	 and federal regulators regarding how                  ing changes related to the Dodd-Frank Act that
     	 depository institutions are fulfilling their          have direct bearing on consumer protections.
     	 obligations towards community housing                 The Dodd-Frank Act established the Consumer
     	needs.                                                 Financial Protection Bureau within the FRB
                                                             and transferred to this bureau the FDIC’s
      •	 The Fair Housing Act prohibits discrimi-            examination and enforcement responsibilities
     	 nation based on race, color, religion, nation-        over most federal consumer financial laws for
     	 al origin, sex, familial status, and handicap         insured depository institutions with over $10
     	 in residential real-estate-related                    billion in assets and their insured depository
     	transactions.                                          institution affiliates. Also during early 2011, the
         •	 The Gramm-Leach Bliley Act eliminated            FDIC established a new Division of Depositor
     	      barriers preventing the affiliations of banks    and Consumer Protection, responsible for the
     	      with securities firms and insurance compa-       Corporation’s compliance examination and
     	      nies and mandates new privacy rules.             enforcement program as well as the depositor
                                                             protection and consumer and community affairs
      •	 The Truth in Lending Act requires mean-
                                                             activities that support that program.
     	 ingful disclosure of credit and leasing
     	terms.                                                     Historically, turmoil in the credit and
                                                             mortgage markets has presented regulators,
         •	 The Fair and Accurate Credit Transac-
                                                             policymakers, and the financial services
     	      tion Act further strengthened the country’s
                                                             industry with serious challenges. The FDIC has
     	      national credit reporting system and assists     been committed to working with the Congress
     	      financial institutions and consumers in the      and others to ensure that the banking system
     	      fight against identity theft.                    remains sound and that the broader financial
         The FDIC serves a number of key roles               system is positioned to meet the credit needs of
     in the financial system and among the most              the economy, especially the needs of creditwor-
     important is its work in ensuring that banks            thy households that may experience distress.
     serve their communities and treat consumers             Another important priority is financial literacy.
                                                                                                                   25
Strategic Goal 3




     The FDIC has promoted expanded opportuni-               To assist the FDIC to protect consumer
     ties for the underserved banking population in      rights and ensure customer data security and
     the United States to enter and better understand    privacy, the OIG’s 2013 performance goals
     the financial mainstream. Economic inclusion        were as follows:
     continues to be a priority for the FDIC, and a          •	 Contribute to the effectiveness of the
     key focus going forward will be on serving the      	      Corporation’s efforts to ensure compliance
     unbanked and underbanked in our country.            	      with consumer protections at FDIC-super-
         Consumers today are also concerned about        	      vised institutions.
     data security and financial privacy. Banks           •	 Support corporate efforts to promote fair-
     are increasingly using third-party servicers        	 ness and inclusion in the delivery of
     to provide support for core information and         	 products and services to consumers and
     transaction processing functions. The FDIC          	communities.
     seeks to ensure that financial institutions
     protect the privacy and security of information         •	 Conduct investigations of fraudulent
     about customers under applicable U.S. laws          	      representations of FDIC affiliation
     and regulations.                                    	      or insurance that negatively impact
                                                         	      public confidence in the banking system.
         Every year fraud schemers attempt to rob
     consumers and financial institutions of millions
     of dollars. The OIG’s Office of Investigations      OIG Work in Support of Goal 3
     can identify, target, disrupt, and dismantle            During the reporting period, we did
     criminal organizations and individual opera-        not complete audits or evaluations directly
     tions engaged in fraud schemes that target          related to this goal area. We would note,
     our financial institutions or that prey on the      however, that we have initiated two new
     banking public. OIG investigations have identi-     assignments involving consumer protection.
     fied multiple schemes that defraud consumers.       First, we are examining the FDIC’s actions to
     Common schemes range from identity fraud            address consumer protection violations and
     to Internet scams such as “phishing” and            deficiencies. Additionally, we are coordinating
     “pharming.”                                         with OIG counterparts in planning an
         The misuse of the FDIC’s name or logo           assignment to examine the progress that
     has been identified as a common scheme to           the prudential regulators and the Consumer
     defraud consumers. Such misrepresentations          Financial Protection Bureau have made
     have led unsuspecting individuals to invest on      in establishing coordination for the many
     the strength of FDIC insurance while mislead-       consumer protection responsibilities that the
     ing them as to the true nature of the investment    various parties carry out. As noted earlier, our
     products being offered. These consumers have        investigative work involving misrepresentation
     lost millions of dollars in the schemes. Investi-   of FDIC insurance or affiliation and protection
     gative work related to such fraudulent schemes      of personal information supports this strategic
     is ongoing and will continue. With the help         goal area, and we are reporting on one such
     of sophisticated technology, the OIG contin-        case during the reporting period. Further,
     ues to work with FDIC divisions and other           in response to an increase in the number of
     federal agencies to help with the detection of      consumer inquiries in our public inquiry
     new fraud patterns and combat existing fraud.       system, the OIG has referred a number of
     Coordinating closely with the Corporation and       matters either to the FDIC’s Consumer
     the various U.S. Attorneys’ Offices, the OIG        Response Center or to other entities offering
     helps to sustain public confidence in federal       consumer assistance on banking-related topics.
     deposit insurance and goodwill within financial     Our investigative and public inquiry efforts are
     institutions.                                       discussed below.

26
                                                                                                   Strategic Goal 3




Office of Investigations Works to                              OIG Responds to Email Schemes
Prevent Misrepresentations of FDIC                                 The Electronic Crimes Unit (ECU) contin-
Affiliation                                                    ues to work with agency personnel and an FDIC
    Unscrupulous individuals sometimes attempt                 contractor to identify and mitigate the effects of
to misuse the FDIC’s name, logo, abbreviation,                 phishing attacks through emails claiming to be
or other indicators to suggest that deposits or                from the FDIC. These schemes persist and seek
other products are fully insured or somehow                    to elicit personally identifiable and/or financial
connected to the FDIC. Such misrepresentations                 information from their victims. The nature
induce the targets of schemes to trust in the                  and origin of such schemes vary, and, in many
strength of FDIC insurance or the FDIC name                    cases, it is difficult to pursue the perpetrators, as
while misleading them as to the true nature of                 they are quick to cover their cyber tracks, often
the investments or other offerings. These abuses               continuing to originate their schemes from other
not only harm consumers, they can also erode                   Internet addresses.
public confidence in federal deposit insurance.                    In the latest instance, the ECU learned that
As discussed below, during the reporting period,               over 20 individuals in foreign countries were
a Texas man pleaded guilty for his role in a                   contacted by individuals claiming to be from
scheme involving misrepresentation of FDIC                     the FDIC Division of Resolutions and Receiv-
affiliation that victimized senior citizens.                   erships (DRR). The foreign individuals were
                                                               fraudulently informed that the FDIC was going
Houston Man Pleads Guilty to Invest-                           to reimburse them for stock losses after they
ment Scheme                                                    paid fees to release the funds. The ECU notified
    On September 9, 2013, a Houston business-                  the victims of the scam. Additionally, the ECU
man pleaded guilty to the charge of misapplica-                is investigating the source of the fraudulent
tion of fiduciary property. He had been arrested               communications to halt further activity.
earlier on charges brought by the State of Texas.
                                                               OIG’s Inquiry Intake System Responds to
    Operating under the business names of First                Public Concerns and Questions
American Acceptance Corp. and Park Capital,                        The OIG’s inquiry intake system supple-
LLC, the businessman devised a fraudulent                      ments the OIG Hotline function. The Hotline
investment scheme to steal approximately                       continues to address allegations of fraud, waste,
$1 million from elderly investors. He used inde-               abuse, and possible criminal misconduct. Our
pendent salesmen to advertise and sell unregis-                office also receives a large number of public
tered securities referred to as collateral secured             inquiries ranging from media inquiries to
debt obligations (CSDO). The salesmen falsely                  requests for additional information on failed
advertised FDIC-insured certificates of deposit                institutions to pleas for assistance with mort-
paying high interest rates (above the actual                   gage foreclosures to questions regarding credit
market rate) in local newspapers, and when                     card companies and banking practices. These
investors responded to the advertisements, they                inquiries come by way of phone calls, emails,
were steered into the CSDOs. Investors were                    faxes, and other correspondence. The OIG
deceived into believing that the CSDOs were                    makes every effort to acknowledge each inquiry
secure and fully insured by either the FDIC or                 and be responsive to the concerns raised. We
Lloyds of London. Within a year of his taking                  coordinate closely with others in the Corpora-
possession of the investors’ funds, the business-              tion through the FDIC’s Public Service Provider
man spent their money on personal expenses,                    working group and appreciate their assistance.
including legal and accounting fees.                           We handle those matters within the OIG’s
     Source: Texas State Securities Board, Enforcement         jurisdiction and refer inquiries, as appropriate,
Division. Responsible Agencies: This is a joint investiga-     to other FDIC offices and units or to external
tion conducted by FDIC OIG, the FBI, and the Texas State
Securities Board. The case is being prosecuted by the Harris   organizations. During the past 6-month period,
County District Attorney’s Office.                             we addressed approximately 180 such matters.
                                                                                                                       27
                                                    Strategic Goal 4:
                                                    The OIG Will Help Ensure that
                                                    the FDIC Efficiently and Effectively
                                                    Resolves Failing Banks and
                                                    Manages Receiverships

                                                              orderly resolution process under its receiver-
                                                              ship authority for insured banks and thrifts. The
         One of the FDIC’s most important roles is
                                                              Dodd-Frank Act gave the FDIC a similar set of
     acting as the receiver or liquidating agent for
                                                              receivership powers to liquidate failed systemi-
     failed FDIC-insured institutions. The FDIC’s
                                                              cally important financial firms. OCFI is the prin-
     DRR’s responsibilities include planning and
                                                              cipal FDIC office responsible for such activity
     efficiently handling the resolutions of fail-
                                                              but works in concert with DRR, RMS, and the
     ing FDIC-insured institutions and providing
     prompt, responsive, and efficient administration         Legal Division as well.
     of failing and failed financial institutions in              Franchise marketing activities are at the
     order to maintain confidence and stability in our        heart of the FDIC’s resolution and receiver-
     financial system.                                        ship work. The FDIC pursues the least costly
         •	 The resolution process involves valuing a         resolution to the DIF for each failing institution.
     	      failing federally insured depository institu-     Each failing institution is subject to the FDIC’s
     	      tion, marketing it, soliciting and accepting      franchise marketing process, which includes
     	      bids for the sale of the institution, consider-   valuation, marketing, bidding and bid evalua-
     	      ing the least costly resolution method,           tion, and sale components. The FDIC is often
     	      determining which bid to accept, and work-        able to market institutions such that all deposits,
     	      ing with the acquiring institution through        not just insured deposits, are purchased by the
     	      the closing process.                              acquiring institution, thus avoiding losses to
                                                              uninsured depositors.
         •	 The receivership process involves
     	      performing the closing function at the failed         Through purchase and assumption agree-
     	      bank; liquidating any remaining assets; and       ments with acquiring institutions, the Corpora-
     	      distributing any proceeds to the FDIC, the        tion has entered into 290 shared-loss agree-
     	      bank customers, general creditors, and            ments involving about $212.7 billion in assets.
     	      those with approved claims.                       Under these agreements, the FDIC agrees to
         The FDIC’s resolution and receivership               absorb a portion of the loss—generally 80-95
     activities have presented a substantial and              percent—which may be experienced by the
     challenging workload for the Corporation in              acquiring institution with regard to those assets,
     recent years. Banks over the past years have             for a period of up to 10 years. In addition, the
     become more complex, and the industry has                FDIC has entered into 34 structured asset sales
     consolidated into larger organizations. Through-         to dispose of about $26 billion in assets. Under
     out the recent crisis, the FDIC was called upon          these arrangements, the FDIC retains a partici-
     to handle failing institutions with significantly        pation interest in future net positive cash flows
     larger numbers of insured deposits than it has           derived from third-party management of these
     dealt with in the past. The sheer volume of all          assets.
     failed institutions, big and small, has posed                Other post-closing asset management activi-
     challenges and risks to the FDIC.                        ties continue to require much FDIC attention.
        Under the Dodd-Frank Act, the FDIC                    FDIC receiverships manage assets from failed
     was given new resolution authority for large             institutions, mostly those that are not purchased
     bank holding companies and systemically                  by acquiring institutions through purchase and
     important non-bank financial companies. The              assumption agreements or involved in structured
     FDIC has historically carried out a prompt and           sales. The FDIC is managing 482 receiverships
28
                                                                                            Strategic Goal 4




holding about $13.8 billion in assets, mostly       have the means to pay but hide their assets
securities, delinquent commercial real-estate       and/or lie about their ability to pay. In such
and single-family loans, and participation          instances, the Office of Investigations would
loans. As receiver, the FDIC seeks to expedi-       work with both DRR and the Legal Division
tiously wind up the affairs of the receiverships.   in pursuing criminal investigations of these
Once the assets of a failed institution have been   individuals.
sold and the final distribution of any proceeds         To help ensure the FDIC efficiently and
is made, the FDIC terminates the receivership.      effectively resolves failing banks and manages
    The FDIC increased its permanent resolu-        receiverships, the OIG’s 2013 performance
tion and receivership staffing and significantly    goals were as follows:
increased its reliance on contractor and term           •	 Evaluate the FDIC’s plans and systems for
employees to fulfill the critical resolution and    	      managing bank resolutions.
receivership responsibilities associated with the
ongoing FDIC interest in the assets of failed        •	 Investigate crimes involved in or contribut-
financial institutions. Now, as the number          	 ing to the failure of financial institutions or
of financial institution failures continues to      	 which lessen or otherwise affect recoveries
decline, the Corporation is reshaping its work-     	 by the DIF, involving restitution or
force and adjusting its budget and resources        	otherwise.
accordingly. The FDIC closed the West Coast
Office and the Midwest Office in January 2012
and September 2012, respectively, and plans         OIG Work in Support of Goal 4
to close the East Coast Office in 2014. In this         During the reporting period, as summarized
connection, authorized staffing for DRR, in         below, we completed two assignments involv-
particular, fell from a peak of 2,460 in 2010       ing resolution and receivership activities. In
to 1,463 proposed for 2013, which reflects a        one, we examined the FDIC’s internal controls
reduction of 393 positions from 2012 and 997        for identifying and managing risks in resolv-
positions over 3 years. As for DRR contractor       ing financial institutions. We also completed a
funding, it too fell from a peak of $1.34 billion   separate assignment involving the Corporation’s
in 2010 to $456.7 million proposed for 2013,        structured transaction with MountainView
a reduction of $318.6 million from 2012 and         Public Private Investment I, LLC. Efforts of our
$884.9 million (66 percent) over 3 years.           ECU as they may relate to bank closings are
    While OIG audits and evaluations address        described as well.
various aspects of controls in resolution and
                                                    The FDIC’s Resolution Planning
receivership activities, OIG investigations
benefit the Corporation in other ways. For
                                                    Process
example, in the case of bank closings where             Between 2008 and 2012, the FDIC resolved
fraud is suspected, our Office of Investigations    465 failed insured depository institutions that
may send case agents and computer forensic          caused more than $86 billion in potential losses
special agents from the ECU to the institution.     to the DIF. Total assets in these institutions at
ECU agents use special investigative tools          the time of failure exceeded $674 billion.
to provide computer forensic support to OIG             We conducted an evaluation to determine
investigations by obtaining, preserving, and        whether the resolution planning process is
later examining evidence from computers at the      designed to enable the FDIC to efficiently and
bank.                                               effectively identify and manage risks involved
    The OIG also coordinates with DRR on            with resolving financial institutions. We consid-
concealment of assets cases that may arise. In      ered whether the FDIC had established effective
many instances, the FDIC debtors do not have        internal controls to identify and manage these
the means to pay fines or restitution owed to       risks. The FDIC continues to manage risks
the Corporation. However, some individuals do       presented by failed depository institutions after
                                                                                                          29
Strategic Goal 4




     the institution has been resolved and the FDIC        Mountain View Public Private Invest-
     has been appointed as Receiver. Consequently,         ment I, LLC Structured Transaction
     in doing this review, we also gained an under-
                                                               The FDIC, as Receiver, had completed
     standing of the controls particularly relevant
                                                           34 structured transactions through August
     to risk mitigation associated with receivership
                                                           21, 2013 involving 42,900 assets with a total
     processes, and we discuss those controls briefly
                                                           unpaid principal balance of $26.0 billion. These
     in our report.
                                                           transactions accounted for 3.8 percent of the
         We concluded that the resolution planning         $682.4 billion in assets inherited by the FDIC,
     process is designed to identify and manage            as Receiver, from failed institutions from Janu-
     risks associated with the resolution of failing       ary 1, 2008 through August 21, 2013. Given the
     depository institutions, focusing on risks that       dollar volume and risks associated with these
     factor into DRR’s marketing of the failing            transactions, the OIG has previously conducted
     depository institution and the extent to which        several audits of structured transactions
     assets and liabilities will remain with an FDIC       predominately involving commercial assets.
     receivership.
                                                               As part of our continuing coverage of this
          The FDIC is statutorily required to resolve      area, the OIG contracted with BDO USA, LLP
     institutions in the least costly manner and           (BDO) to conduct a performance audit of the
     to maximize recoveries from receiverships.            FDIC’s structured transaction with Mountain-
     Accordingly, many of the risks and challenges         View Public Private Investment I, LLC (Moun-
     facing the FDIC stem from the possibility that        tainView) that, unlike the prior transactions we
     the FDIC may not meet these statutory objec-          reviewed, consists of single-family residential
     tives. The FDIC employs several resolution            assets. The objective of this audit was to assess
     scenarios and each type presents its own set          MountainView’s compliance with the structured
     of risks. For most failed institutions, the FDIC      transaction agreements.
     successfully transfers certain assets to a healthy
                                                               By way of background, and as noted earlier,
     acquiring institution. Resolution scenarios
                                                           structured transactions involve the liquidation
     where the FDIC is unable to do so, such as a
                                                           of assets through public/private partnerships
     bridge bank or deposit payout, present addition-
                                                           that utilize the asset management expertise of
     al financial, operational, and reputational risks
                                                           the private sector. The FDIC, as Receiver, uses
     for the FDIC. For those scenarios, the FDIC has
                                                           structured transactions to facilitate the sale of
     developed additional processes and controls to
                                                           many receivership assets that are difficult to
     identify and manage the associated resolution
                                                           market and sell. Such assets consist largely of
     and receivership risks.                               distressed and non-performing single-family
         While DRR works to identify potential             and commercial real estate loans and real estate
     resolution risks prior to closing an institution,     owned.
     DRR also designed its receivership processes to           In a structured transaction, the FDIC, as
     mitigate risks that are identified before and after   Receiver for one or more failed institutions,
     a financial institution is closed. We gained an       pools a group of similar assets, such as single-
     understanding of controls particularly relevant       family, commercial real estate, or construction-
     to risk mitigation that are associated with receiv-   type loans, from one or more failed-bank
     ership processes. However, assessing to what          receiverships and transfers the assets into a
     extent those controls were properly designed          newly created limited liability company (LLC).
     and implemented was outside of the scope of           In exchange for contributing the assets, the
     this evaluation. We have performed prior work         FDIC, as Receiver, obtains the entire owner-
     related to certain aspects of the FDIC’s receiv-      ship interest, or equity, in the LLC. Following a
     ership processes wherein we concluded that            competitive bid process, the FDIC, as Receiver,
     applicable controls were in place and working.        then sells a portion of the equity in the LLC
        Our report contained no recommendations.           to pre-qualified, private-sector investors. The
30
                                                                                          Strategic Goal 4




FDIC, as Receiver, also engages various outside          •	 Ensuring that lien releases are filed timely;
consultants (or advisors) to provide technical           •	 Ensuring that real estate owned values are
assistance with the transactions.                    	      accurately reflected in reporting documents;
    In this particular case, on August 15, 2011,         •	 Formalizing its approach to ensuring
the FDIC, as Receiver for 49 failed institu-         	      compliance with key regulatory require-
tions, formed SFR Venture 2011-1, LLC (SFR           	      ments, including those contained in
Venture). On September 1, 2011, the FDIC,            	      consumer protection laws; and
as Receiver, transferred 1,453 single-family
residential loans with an estimated unpaid               •	 Formalizing its process for tracking, record-
principal balance of $282.2 million to SFR           	      ing, and responding to customer inquiries.
Venture. As partial consideration for transferring       We made four recommendations intended
the assets, SFR Venture executed and delivered       to strengthen the processes associated with the
to the FDIC, as Receiver, a purchase money           FDIC’s structured transaction with Mountain-
note with an initial principal amount of $69.2       View. In its response, DRR concurred with all
million. Following a competitive bid process,        four.
the FDIC, as Receiver, sold a 40-percent equity
interest in SFR Venture to MountainView for          Electronic Crimes Unit Supports
$27.7 million. The FDIC, as Receiver, retained       Closed Bank Investigations and
the remaining 60-percent equity interest in SFR      Other OIGs
Venture. MountainView is the Manager and, as             The ECU continues to support the OIG’s
such, is responsible for the day-to-day manage-      Office of Investigations by providing computer
ment of SFR Venture and ultimately responsible       forensic assistance in ongoing fraud investiga-
for ensuring compliance with the structured          tions. During the reporting period, the ECU also
transaction agreements. MountainView works           offered its expertise and resources to other OIGs
closely with its Servicer, Statebridge Company,      in need of assistance—namely, the Securities
LLC.                                                 and Exchange Commission and Legal Services
    BDO concluded that, overall, MountainView        Corporation OIGs. We are pleased that we are in
was in compliance with the structured transac-       a position to leverage our resources by offering
tion agreements, based on the testing performed.     computer forensic support to our colleagues in
MountainView dedicated substantial resources         the interest of helping them fully achieve their
to ensure compliance with the structured trans-      missions.
action agreements, its loan files were well orga-
nized, and its employees were knowledgeable
of the requirements in the structured transaction
agreements. Additionally, MountainView had an
asset management strategy designed to maxi-
mize collections; considered and performed
loan modifications in accordance with the terms
of the transaction agreements; ensured the
timely application of collections to borrowers’
accounts; and obtained appropriate approvals
for loan workouts, asset sales, foreclosures, loan
modifications, and loan modification denials.
    Further, BDO did not identify any issues
pertaining to regulatory compliance or Moun-
tainView’s process for responding to customer
inquiries. Nonetheless, BDO found that Moun-
tainView, through its Servicer, Statebridge,
could enhance its controls by:
                                                                                                            31
                                               Strategic Goal 5:
                                               The OIG Will Promote Sound
                                               Governance and Effective Stewardship
                                               and Security of Human, Financial,
                                               IT, and Physical Resources


                                                             With the number of troubled FDIC-
                                                         supervised institutions also on the decline, the
         The FDIC must effectively and economi-          FDIC has reduced authorized nonpermanent
     cally manage and utilize a number of critical       examination staff as well. Risk management
     strategic resources in order to carry out its       staffing declined from a peak of 2,237 in 2011
     mission successfully, particularly its human,       to 1,966 proposed for 2013, a reduction of
     financial, information technology (IT), and         271 nonpermanent positions. The number of
     physical resources. These resources have been       compliance examination staff as well declined,
     stretched during the past years of the recent       though not as much—from a peak of 572 in
     crisis, and the Corporation continues to face       2012 to 522 proposed for 2013, a reduction of
     challenges as it returns to a steadier state of     50 nonpermanent positions.
     operations. New responsibilities, reorganiza-
                                                             To fund operations, the Board of Directors
     tions, and changes in senior leadership and in
                                                         approved a $2.68 billion Corporate Operating
     the makeup of the FDIC Board have affected
                                                         Budget for 2013, 18.2 percent lower than the
     the FDIC workforce substantially over the past
                                                         2012 budget. In conjunction with its approval
     few years. Efforts to promote sound gover-
                                                         of the 2013 budget, the Board also approved
     nance, effective security, and vigilant steward-
                                                         an authorized 2013 staffing level of 8,026
     ship of its core business processes and the IT
                                                         employees, down from 8,713 previously autho-
     systems supporting those processes, along with      rized, a net reduction of 687 positions, with
     attention to human and physical resources,          further reductions projected in 2014 and future
     will continue to be keys to the Corporation’s       years. The FDIC’s operating expenses are paid
     success.                                            from the DIF, and consistent with sound corpo-
         As the number of financial institution          rate governance principles, the Corporation’s
     failures continues to decline, the Corporation      financial management efforts must continu-
     is reshaping its workforce and adjusting its        ously seek to be efficient and cost-conscious,
     budget and resources accordingly. As noted          particularly in a government-wide environment
     earlier, the FDIC closed the West Coast Office      that is facing severe budgetary constraints and
     and the Midwest Office in January 2012 and          other economic and fiscal uncertainties.
     September 2012, respectively, and plans to              As conditions gradually improve through-
     close the East Coast Office in 2014. In this        out the industry and the economy, the Corpo-
     connection, authorized staffing for DRR, in         ration and staff are adjusting to a new work
     particular, fell from a peak of 2,460 in 2010       environment and workplace. The closing of
     to 1,463 proposed for 2013, which reflects a        the two temporary offices and the plans for
     reduction of 393 positions from 2012 and 997        closing the third can disrupt current workplace
     positions over 3 years. DRR contractor funding      conditions. These closings can also introduce
     also fell from a peak of $1.34 billion in 2010      risks, as workload, responsibilities, knowledge,
     to $456.7 million proposed for 2013, a reduc-       and files are transferred and employees depart
     tion of $318.6 million from 2012 and $884.9         to take other positions—sometimes external
     million (66 percent) over 3 years. Still, the       to the FDIC. Fewer risk management and
     volume of failed-bank assets and associated         compliance examiners can also pose chal-
     contracting activities continue to require effec-   lenges to the successful accomplishment of the
     tive and efficient contractor oversight manage-     FDIC’s examination responsibilities. Further,
     ment and technical monitoring functions.            the ongoing staffing of OCFI, with hiring from
32
                                                                                             Strategic Goal 5




both internal and external sources continues to       In the Chairman’s view, given current IT
require attention—with respect to on-boarding,        developments and risks, the CIO role required
training, and retaining staff with requisite skills   a full-time incumbent with broad strategic
for the challenging functions of that office. For     responsibility for IT governance, investments,
the best interest of all employees, in light of       program management, and information secu-
a transitioning workplace, the Corporation is         rity. Under a new organizational alignment, the
sustaining its emphasis on fostering employee         CIO now reports directly to the Chairman in
engagement and morale. Its Workplace Excel-           fulfilling these responsibilities and acts as the
lence Program is a step in that direction.            Chairman’s key advisor on IT and information
    From an IT perspective, amidst the height-        security issues and concerns. Additionally, the
ened activity in the industry and economy,            Director of DIT now reports to the CIO and is
the FDIC has engaged in massive amounts               responsible for managing the IT function at the
                                                      FDIC and identifying and implementing effec-
of information sharing, both internally and
                                                      tive and efficient technological solutions.
with external partners. This is also true with
respect to sharing of highly sensitive infor-             Another recommendation from the assess-
mation with other members of the Financial            ment was to enhance the reporting relationship
Stability Oversight Council formed pursuant           of the Chief Information Security Officer, and
to the Dodd-Frank Act. FDIC systems contain           the Information Security and Privacy Staff
voluminous amounts of critical data. The              branch, from DIT to report directly to the CIO.
Corporation needs to protect against cyber-           This realignment is intended to ensure that the
threats and ensure the integrity, availability,       Chief Information Security Officer is able to
and appropriate confidentiality of bank data,         provide an independent perspective on security
personally identifiable information, and other        matters to the CIO and that the separate CIO
sensitive information in an environment of            position has the authority and primary respon-
increasingly sophisticated security threats           sibility to implement an agency-wide informa-
and global connectivity. In a related vein,           tion security program.
continued attention to ensuring the physical              Finally, a key component of overall corpo-
security of all FDIC resources is also a priority.    rate governance at the FDIC is the FDIC Board
The FDIC needs to be sure that its emergency          of Directors. Even as the financial system and
response plans provide for the safety and             economy continue to make steady progress in
physical security of its personnel and ensure         the aftermath of the recent crisis, the Board
that its business continuity planning and disas-      will likely face challenges in leading the orga-
ter recovery capability keep critical business        nization, accomplishing the Chairman’s priori-
functions operational during any emergency.           ties, and coordinating with the other regulatory
    Of note during the reporting period, in July      agencies on issues of mutual concern and
2013, the FDIC Chairman announced signifi-            shared responsibility. Enterprise risk manage-
cant organizational changes in the FDIC’s IT          ment is a related aspect of governance at the
realm. The Chairman indicated he had assessed         FDIC. Notwithstanding a stronger economy
the FDIC’s IT security policies, procedures,          and financial services industry, the FDIC’s
and organizational alignment. The assess-             enterprise risk management activities need to
ment identified a number of opportunities to          be attuned to emerging risks, both internal and
enhance the IT area and address a wide range          external to the FDIC, and the Corporation as
of increasing IT security risks in the current        a whole needs to be ready to take necessary
global environment. One recommendation                steps to mitigate those risks as changes occur
coming out of the assessment was to separate          and challenging scenarios present themselves.
the Chief Information Officer (CIO) role,                 To promote sound governance and effective
which had traditionally been performed on             stewardship and security of human, financial,
a collateral duty basis by the Director of the        IT, and physical resources, the OIG’s 2013
Division of Information Technology (DIT).             performance goals were as follows:
                                                                                                           33
Strategic Goal 5




         •	 Evaluate corporate efforts to manage human         that they perform similar assessments. Consis-
     	      resources and operations efficiently,              tent with the Task Force request, we conducted
     	      effectively, and economically.                     work to (1) identify the existing energy
      •	 Promote integrity in FDIC internal                    management requirements in legislation, regu-
     	operations.                                              lation, executive order, and other directives that
                                                               apply to the FDIC; (2) assess whether the FDIC
         •	 Promote alignment of IT with the FDIC’s            is meeting those requirements; and (3) make
     	      business goals and objectives.                     recommendations that the FDIC improve its
         •	 Promote IT security measures that ensure           performance if the FDIC is not fully meeting
     	      the confidentiality, integrity, and availability   the requirements.
     	      of corporate information.                              The Task Force request letter also asked the
         •	 Promote personnel and physical security.           OIG to assess the authorities that the FDIC has
         •	 Promote sound corporate governance and             to reduce emissions of heat-trapping pollu-
     	      effective risk management and internal             tion, its authorities to make the nation more
     	      control efforts.                                   resilient to the effects of climate change, and
                                                               the most effective additional steps the FDIC
                                                               could take in those areas. On March 28, 2013,
     OIG Work in Support of Goal 5                             we responded to the Task Force that the FDIC
                                                               did not have authorities in these areas and that
         During the reporting period, we completed
                                                               the FDIC’s focus should remain on maintain-
     three assignments in support of this goal area.
                                                               ing public confidence in the nation’s financial
     We conducted a review of the FDIC’s compli-
                                                               system and not be expanded to cover these
     ance with energy management requirements—a
                                                               additional areas.
     project also conducted by a number of different
     OIGs–at the request of a Congressional task                   By way of perspective, the FDIC owns
     force. We also completed work in connection               four buildings located in Virginia, Washington,
     with the application development activities               D.C., and California, which are divided into
     conducted by some of the FDIC’s individual                seven buildings for energy-tracking purposes.
     business units. Finally, we joined the Treasury           The FDIC also leased 105 office spaces across
     and FRB OIGs in issuing a sixth joint review              the United States as of April 2013.
     related to the transfer of OTS personnel and                  The FDIC is subject to energy efficiency
     functions to the OCC, FRB, and FDIC, pursu-               measures and related reporting requirements
     ant to the Dodd-Frank Act. These reviews are              in certain legislation. Specifically, the FDIC’s
     summarized below.                                         Legal Division opined that the National Energy
                                                               Conservation Policy Act is binding on the
     The FDIC’s Compliance with Energy                         FDIC as are certain parts of the Energy Inde-
     Management Requirements                                   pendence and Security Act of 2007, the Energy
         The federal government is the nation’s                Policy Act of 2005, and the Energy Policy Act
     single largest energy consumer, and federal               of 1992, each of which amended the National
     buildings accounted for about 35 percent of the           Energy Conservation Policy Act. As an inde-
     government’s total energy usage in fiscal year            pendent agency of the federal government, the
     2008. For decades, the federal government has             FDIC is not required to comply with Executive
     attempted to improve energy efficiency and                Orders but has voluntarily complied with some
     water conservation at federal facilities.                 of the provisions of Executive Orders pertain-
         During the reporting period, we performed             ing to energy efficiency.
     an evaluation in response to a request from                  We concluded that the FDIC has under-
     the Bicameral Task Force on Climate Change,               taken a number of efforts to reduce its energy
     dated February 25, 2013. The Task Force also              and water consumption and to recycle waste
     sent letters to nearly 70 other OIGs requesting           materials. Notable efforts have included capital
34
                                                                                       Strategic Goal 5




improvements at its owned buildings, such as         recommendation by developing and document-
replacing heating, ventilation, and air condi-       ing energy management policies and proce-
tioning systems and adding supplemental boil-        dures, related goals, and initiatives for meeting
ers and chillers to provide heating and cooling      Federal Energy Management Program require-
more efficiently; installation of energy-efficient   ments. Formalizing a sustainability program
lighting, room occupancy sensors, and water-         would encompass many of the areas discussed
efficient fixtures; recycling efforts; and the use   in our report.
of environmentally preferable products. Other            Our report contained eight recommenda-
initiatives have also contributed to less energy     tions to strengthen the FDIC’s energy efficiency
usage, such as corporate support for telecom-        measures and programs and its compliance
muting, video conferencing, carpooling,              with applicable legislation and reporting
flexible work schedules, and electronic sharing      requirements. The FDIC concurred with all
of information.                                      eight recommendations and described planned
    Notwithstanding those efforts, we deter-         corrective actions that it would complete by
mined that the FDIC could do more to comply          December 31, 2014.
with energy reduction, water management, and
reporting requirements contained in legisla-         Business Unit-Led Application
tion. Specifically, we concluded that the FDIC       Development Activities
should:                                                  Business unit-led application development
    •	 Take steps aimed at meeting legislative       generally refers to the creation or enhance-
	      energy reduction goals;                       ment of IT solutions where the development
                                                     is performed under the direction of an FDIC
 •	 Establish a training program for energy          business division or office (i.e., a business
	managers;                                           unit), rather than the FDIC’s DIT. In our most
 •	 Perform comprehensive periodic evalua-           recent information security program evalua-
	 tions of covered facilities;                       tion report required by the Federal Information
 •	 Implement and monitor energy conserva-           Security Management Act of 2002, we noted
                                                     that such development activity presents risk
	 tion measures that are life cycle
                                                     because it generally occurs outside of formal
	cost-effective;
                                                     risk management and IT governance processes.
    •	 Report information to the Department of       Accordingly, we decided to review this area
	      Energy about covered facilities;              in more detail during the reporting period to
 •	 Report annually to the Department of             determine the extent to which controls have
	 Energy on the Corporation’s activi-                been established to mitigate those risks.
	 ties for meeting federal energy management             Within the FDIC, DIT has primary respon-
	requirements;                                       sibility for managing the FDIC’s IT program
    •	 Establish a process for reviewing large       and operations, including the development
	      capital energy investment decisions; and      and enhancement of applications. The Direc-
                                                     tor, DIT, reports to the FDIC’s CIO, who has
    •	 Research additional opportunities with
                                                     corporate-wide strategic responsibility for IT
	      energy service companies, state agencies,
                                                     governance, investments, program manage-
	      and other third parties to identify and
                                                     ment, and information security. DIT follows
	      participate in programs that achieve energy
                                                     formal risk management and IT governance
	      and water savings.                            processes when developing applications. Such
    Further, while the FDIC had addressed            processes include the Rational Unified Process
several components of a 2008 OIG report              systems development life cycle (SDLC) meth-
recommendation to establish a formal sustain-        odology and corporate policies and procedures
ability program, we noted that the FDIC              that address such things as the enterprise
would benefit from fully implementing this           architecture, data management, information
                                                                                                         35
Strategic Goal 5




     security, privacy, configuration management,         to rapidly develop and deploy IT solutions to
     and quality assurance. In addition, the FDIC         support information analysis and management
     has established various governance bodies, such      decision making. However, this type of develop-
     as the Capital Investment Review Committee           ment also presents risk because it has generally
     and the CIO Council, to provide oversight and        occurred outside of the FDIC’s established risk
     control of application development initiatives       management framework and IT governance
     that meet certain criteria.                          processes that are designed to ensure internal
         The FDIC’s business units also engage in         controls are addressed. Key risks associated
     application development activity and, in some        with the FDIC’s business unit-led application
     cases, have established specialized IT support       development activities that we identified during
     service units to perform the development work.       the audit include not:
     Business unit-led application development                •	 recording the applications in the FDIC’s
     ranges from the building of simple applications      	      information systems inventory, thereby
     with only a few users to complex applica-            	      limiting the FDIC’s assurance that the
     tions with hundreds of users. Consequently,          	      applications are subject to appropriate risk
     the cost of the applications can vary from a         	      management procedures and oversight;
     few thousand dollars to over $1 million. Such            •	 subjecting development projects to appro-
     development can also involve creating new            	      priate IT governance processes, thus reduc-
     data or collecting sensitive information, such as    	      ing the FDIC’s assurance that IT investment
     personally identifiable information, that is used    	      decisions are consistent with corporate and
     to support important business functions, such as
                                                          	      division goals and priorities; and
     large bank supervision, the marketing of failing
     banks, and human resources management. Busi-             •	 establishing appropriate SDLC standards,
     ness units fund their application development        	      therefore limiting the FDIC’s assurance
     activities through their operational budgets.        	      that applications are properly designed and
     However, our report notes that there is no FDIC      	      tested, systems documentation is adequate,
     policy requirement for business units to track or    	      and information security and privacy
     report the costs of their development activities     	      requirements are addressed.
     to FDIC management officials, and business               We identified certain controls that were
     units did not do so. As a result, we were unable     established by the FDIC’s business units that
     to determine the total amount spent on business      mitigated, to some extent, the risks described
     unit-led application development at the FDIC.        above. Such controls included SDLC guidelines
     The majority of the FDIC’s business unit-led         and procedures to guide certain application
     application development occurs within DRR            development activities and committees to
     and RMS.                                             provide oversight of IT activities. However,
         In January 2013, DIT began hosting a series      we determined that control improvements were
     of meetings with division and office representa-     needed in all three risk areas noted above.
     tives to discuss issues associated with business         We made three recommendations to the
     unit-led application development and to develop      FDIC’s Acting CIO. In general, the recommen-
     a corporate policy and supporting guidance in        dations are aimed at establishing appropriate
     this area. The corporate policy and guidance         policies, procedures, and guidance to ensure that
     is intended to provide, among other things,          applications are recorded in the Corporation’s
     criteria for identifying application development     information systems inventory, when appropri-
     efforts that are appropriate for business unit-led   ate; that business units have appropriate IT
     development, the IT governance processes that        governance processes and SDLC standards; and
     should apply, and the project activities involved.   that existing applications comply with FDIC
         Our report acknowledges that business            security policies.
     unit-led application development provides the            The Acting CIO concurred with all three of
     FDIC’s divisions and offices with the flexibility    the report’s recommendations.
36
                                                                                       Strategic Goal 5




Joint Review Conducted by the OIGs                        The last Status of the Transfer of Office of
of the Department of the Treasury,                    Thrift Supervision Functions report, issued on
Board of Governors of the Federal                     March 28, 2013, identified no ongoing issues
                                                      concerning the FDIC’s implementation of the
Reserve System, and the FDIC
                                                      Plan. In addition, we were not advised of any
    We issued a report presenting the results of      new issues regarding the Plan, nor did Treasury
the sixth joint review by the Department of the       OIG identify a need for any expanded or new
Treasury (Treasury), the FRB, and FDIC OIG            audit work impacting the FDIC, since the last
of the transfer, pursuant to Title III of the Dodd-   report was issued. Accordingly, our office did
Frank Act, of the functions, employees, funds,        not perform field work related to the Plan as
and property of the former OTS to the FRB, the        part of this audit.
FDIC, and the OCC. In accordance with Title
III of the Dodd-Frank Act, the transfer occurred
in July 2011. The Dodd-Frank Act further
requires that we, jointly with the Department
of the Treasury and the FRB OIGs, provide a
written report on the status of the implementa-
tion of the Plan every 6 months until the Plan is
implemented.




  FDIC OIG’s Electronic Crimes Unit Addresses Threats to FDIC Information Security
  The ECU is tackling threats to the FDIC’s IT environment on several fronts. During the report-
  ing period, we enhanced our coordination with DIT with respect to detecting and preventing
  insider threats to the abundance of sensitive information and personally identifiable informa-
  tion held by the Corporation. Together we are seeking to proactively prevent any release by
  FDIC insiders—accidental or deliberate—of such sensitive information beyond the walls of the
  FDIC’s secure environment—through electronic means such as emailing sensitive information
  to personal email accounts or otherwise allowing such information to be disclosed.
  Additionally, and on a broader scale, the OIG is a member of the National Cyber Investigative
  Joint Task Force (NCIJTF). In 2008, the President mandated the NCIJTF to be the focal point for
  all government agencies to coordinate, integrate, and share information related to all domestic
  cyber threat investigations. The FBI is responsible for developing and supporting the joint
  task force, which includes 19 intelligence agencies and law enforcement, working together to
  identify key players and schemes. Its goal is to predict and prevent what is on the horizon and
  to pursue the enterprises behind cyber attacks. The NCIJTF focuses on making the Internet safer
  by pursuing the terrorists, spies, and criminals who seek to exploit our systems. Because they
  act globally across many jurisdictions, the collaboration offered through the NCIJTF is critical
  to ensure all legal means and resources available are used to track, attribute, and take action
  against these cyber threats.




                                                                                                         37
                                                Strategic Goal 6:
                                                OIG Resources Management: Build
                                                and Sustain a High-Quality Staff,
                                                Effective Operations, OIG
                                                Independence, and Mutually
                                                Beneficial Working Relationships

                                                          to the Quality Standards for Federal Offices of
                                                          Inspector General. Further, the OIG conducts
         While the OIG’s audit, evaluation, and
                                                          its audit work in accordance with generally
     investigation work is focused principally on the
                                                          accepted government auditing standards; its
     FDIC’s programs and operations, we have an
                                                          evaluations in accordance with Quality Stan-
     obligation to hold ourselves to the highest stan-
                                                          dards for Inspection and Evaluation; and its
     dards of performance and conduct. We seek to
                                                          investigations, which often involve allegations
     develop and retain a high-quality staff, effective
                                                          of serious wrongdoing that may involve poten-
     operations, OIG independence, and mutually
                                                          tial violations of criminal law, in accordance
     beneficial working relationships with all stake-
                                                          with Quality Standards for Investigations and
     holders. A major challenge for the OIG over
                                                          procedures established by the Department of
     the past few years was ensuring that we had the
                                                          Justice.
     resources needed to effectively and efficiently
     carry out the OIG mission at the FDIC, given a           Strong working relationships are funda-
     sharp increase in the OIG’s statutorily mandated     mental to our success. We place a high priority
     work brought about by numerous financial insti-      on maintaining positive working relationships
     tution failures, the FDIC’s substantial resolution   with the FDIC Chairman, Vice Chairman,
     and receivership responsibilities, and its new       other FDIC Board members, and management
     resolution authorities under the Dodd-Frank          officials. The OIG is a regular participant at
     Act. All of these warrant vigilant, independent      FDIC Board meetings and at Audit Commit-
     oversight.                                           tee meetings where recently issued audit and
         To ensure a high-quality staff, we must          evaluation reports are discussed. Other meetings
     continuously invest in keeping staff knowledge       occur throughout the year as OIG officials meet
     and skills at a level equal to the work that needs   with division and office leaders and attend and
     to be done, and we emphasize and support             participate in internal FDIC conferences and
     training and development opportunities for all       other forums.
     OIG staff. We also strive to keep communica-             The OIG also places a high priority on main-
     tion channels open throughout the office. We         taining positive relationships with the Congress
     are mindful of ensuring effective and efficient      and providing timely, complete, and high qual-
     use of human, financial, IT, and procurement         ity responses to congressional inquiries. In most
     resources in conducting OIG audits, evalua-          instances, this communication would include
     tions, investigations, and other support activi-     semiannual reports to the Congress; issued audit
     ties, and have a disciplined budget process to       and evaluation reports; responses to other legis-
     see to that end.                                     lative mandates; information related to complet-
          To carry out our responsibilities, the OIG      ed investigations; comments on legislation and
     must be professional, independent, objective,        regulations; written statements for congressional
     fact-based, nonpartisan, fair, and balanced in       hearings; contacts with congressional staff;
     all its work. Also, the IG and OIG staff must        responses to congressional correspondence and
     be free both in fact and in appearance from          Member requests; and materials related to OIG
     personal, external, and organizational impair-       appropriations.
     ments to their independence. As a member of             The OIG fully supports and participates in
     the Council of the Inspectors General on Integ-      CIGIE activities, and the FDIC IG has served as
     rity and Efficiency (CIGIE), the OIG adheres         Chair of its Audit Committee (and will continue
38
                                                                                             Strategic Goal 6




to do so as IG at the Department of Defense).       lays the basic foundation for establishing goals,
We coordinate closely with representatives          measuring performance, and reporting accom-
from the other the financial regulatory OIGs. In    plishments consistent with the principles and
this regard, as noted earlier in this report, the   concepts of GPRA. We continuously seek to
Dodd-Frank Act created the Financial Stabil-        integrate risk management considerations in all
ity Oversight Council and further established       aspects of OIG planning—both with respect to
the Council of Inspectors General on Financial      external and internal work.
Oversight (CIGFO). This Council facilitates             To build and sustain a high-quality staff,
sharing of information among CIGFO member           effective operations, OIG independence, and
IGs and discusses ongoing work of each              mutually beneficial working relationships,
member IG as it relates to the broader financial    the OIG’s 2013 performance goals were as
sector and ways to improve financial oversight.     follows:
CIGFO may also convene working groups to
evaluate the effectiveness of internal operations    •	 Effectively and efficiently manage OIG
of the Financial Stability Oversight Council.       	 human, financial, IT, and physical
                                                    	resources.
The Treasury IG chairs CIGFO and the FDIC
IG served as Vice Chair prior to his departure          •	 Ensure quality and efficiency of OIG audits,
from the FDIC OIG.                                  	      evaluations, investigations, and other
                                                    	      projects and operations.
    The IG served as a member of the Comptrol-
ler General’s Advisory Council on Government         •	 Encourage individual growth and strength-
Auditing Standards and was the Chair of the         	 en human capital management and leader-
Green Book Advisory Council. Additionally, the      	 ship through professional development and
OIG meets with representatives of the Govern-       	training.
ment Accountability Office to coordinate work        •	 Foster good client, stakeholder, and staff
and minimize duplication of effort, and with        	relationships.
representatives of the Department of Justice,
                                                        •	 Enhance OIG risk management activities.
including the FBI and U.S. Attorneys’ Offices,
to coordinate our criminal investigative work           A brief listing of OIG activities in support of
and pursue matters of mutual interest.              these performance goals follows.
    The FDIC OIG has its own strategic and
annual planning processes independent of the
Corporation’s planning process, in keeping
with the independent nature of the OIG’s core
mission. The Government Performance and
Results Act of 1993 (GPRA) was enacted to
improve the management, effectiveness, and
accountability of federal programs. GPRA
requires most federal agencies, including the
FDIC, to develop a strategic plan that broadly
defines the agency’s mission and vision, an
annual performance plan that translates the
vision and goals of the strategic plan into
measurable objectives, and an annual perfor-
mance report that compares actual results
against planned goals.
    The OIG supports GPRA and is committed
to applying its principles of strategic planning
and performance measurement and reporting
to our operations. The OIG’s Business Plan
                                                                                                           39
Strategic Goal 6




      Effectively and Efficiently Manage OIG Human, Financial, IT, and Physical Resources
      1      Provided the OIG’s Fiscal Year 2014 budget to both the Senate and the House Financial Services and
             General Government Committees. This budget requests $34.6 million to support 130 full-time equiva-
             lents, reflecting no change from our Fiscal Year 2013 budget, based on corporate workload assumptions
             of bank failures and resolution activity expected in calendar year 2013 and beyond.
      2      Prepared for furlough of OIG staff, in light of the lapse in appropriations that occurred on October 1,
             2013. Coordinated with the Office of Management and Budget and developed an orderly shut-down plan
             and notifications to FDIC management and to all OIG staff who would be affected.
      3      Continued to monitor, track, and control OIG spending, particularly as it relates to OIG travel-related
             expenses and use of procurement cards.
      4      Pursued options for a new investigative case management system, and worked to better track audit and
             evaluation assignment costs and to manage audit and evaluation records located in TeamMate or on
             shared drives or SharePoint sites.
      5      Engaged a contractor to review and update the OIG’s records and information management program and
             practices to ensure an efficient and effective means of collecting, storing, and retrieving needed informa-
             tion and documents. Took steps to increase awareness of the importance of records management in the
             OIG, including through internal training sessions and presentations to OIG staff in headquarters and field
             locations.
      6      Continued using our inquiry intake system to capture and efficiently manage inquiries from the public,
             media, Congress, and the Corporation, in the interest of prompt and effective handling of such inquiries.
             Participated with the FDIC’s group of Public Service Providers to share information on inquiries and
             complaints received, identify common trends, and determine how best to respond to public concerns.
      7      Continued working with a contractor to assist with redesign of the OIG’s Intranet site to provide a more
             useful, efficient work tool for all OIG staff.

      8      Planned longer-range OIG personnel/recruiting strategies to ensure a strong, effective complement of
             OIG resources going forward and in the interest of succession planning.




40
                                                                                                     Strategic Goal 6




Ensure Quality and Efficiency of OIG Audits, Evaluations, Investigations, and
Other Projects and Operations
1     Developed the OIG’s Quality Assurance Plan for October 2013–March 2016 to ensure quality in all audit
       and attestation engagement work and evaluations, in keeping with government auditing standards and
       Quality Standards for Inspection and Evaluation. Also issued our Quality Control Review of the OIG’s
       generally accepted government auditing standards assignments–2012.
2      Oversaw contracts to qualified firms to provide audit and evaluation services to the OIG to enhance the
       quality of our work and the breadth of our expertise as we conduct audits and evaluations, and closely
       monitored contractor performance.
3      Continued use of the IG’s feedback form to assess time, cost, and overall quality and value of audits and
       evaluations.
4      Provided training to OIG investigative staff to ensure all staff is current on legal updates and investigative
       techniques and practices involved in their work.

5      Participated in planning and attended the FDIC/DOJ Financial Fraud Conference to help ensure
       continued quality coordination with DOJ and law enforcement colleagues.
6      Relied on OIG Counsel’s Office to provide legal advice and counsel to teams conducting audits and
       evaluations, and to support investigations of financial institution fraud and other criminal activity, in the
       interest of ensuring legal sufficiency and quality of all OIG work.
7      Coordinated with State Department OIG staff to provide needed information for that office to carry out
       a peer review of our audit organization. That peer review resulted in a “Pass” rating, confirming that
       the system of quality control for our audit organization in effect during the period April 1, 2011 through
       March 31, 2013, had been suitably designed and complied with to provide our office with reasonable
       assurance of performing and reporting in conformity with applicable professional standards in all material
       respects.
8      Coordinated the IG community’s audit peer review activities for OIGs government-wide as part of our
       leadership of the CIGIE Audit Committee to ensure a consistent and effective peer review process and
       quality in the federal audit function.
9      Reviewed and updated a number of OIG internal policies related to audit, evaluation, investigation, and
       management operations of the OIG to ensure they provide the basis for quality work that is carried out
       efficiently and effectively throughout the office and made substantial progress converting and transferring
       all such policies to a new automated policies and procedures repository for use by all OIG staff.
10     Monitored and participated in the Corporation’s Plain Writing Act initiative to ensure quality products
       and OIG compliance with the intent of the Act.




                                                                                                                        41
Strategic Goal 6




      Encourage Individual Growth and Strengthen Human Capital Management and Leadership
      Through Professional Development and Training
      1    Continued to support members of the OIG attending graduate banking school programs and other
            advanced banking training opportunities to enhance the OIG staff members’ expertise and knowledge of
            the banking industry.
      2     Employed interns on a part-time basis in the OIG to provide assistance to the OIG.
      3     Represented the CIGIE Audit Committee in the Office of Personnel Management’s initiative to close
            skills gaps associated with six mission-critical positions, including the auditor 511 position.
      4     Continued involvement in the IG community’s introductory auditor training sessions designed to provide
            attendees with an overall introduction to the community and enrich their understanding of fundamental
            aspects of auditing in the federal environment.
      5     Enrolled OIG staff in several different FDIC Leadership Development Programs to enhance their leader-
            ship capabilities.
      6     Continued an active OIG Mentoring Program, which pairs mentors and mentorees as a means of develop-
            ing and enriching both parties in the relationship and enhancing contributions of OIG staff to the mission
            of the OIG.
      7     Sponsored lunch-time Webinars on a variety of topics relevant to the OIG in the interest of providing
            additional opportunities for professional development for OIG staff.



      Foster Good Client, Stakeholder, and Staff Relationships
      1     Maintained congressional working relationships by briefing and communicating with various Commit-
            tee staff on issues of interest to them; providing our semiannual report to the Congress for the 6-month
            period ending March 31, 2013; notifying interested congressional parties regarding the OIG’s completed
            audit and evaluation work; attending or monitoring FDIC-related hearings on issues of concern to various
            oversight committees; and coordinating with the Corporation’s Office of Legislative Affairs on issues of
            mutual interest.
            Of note during this reporting period was the IG’s testimony before the Senate Committee on Banking,
            Housing, and Urban Affairs on lessons learned from the financial crisis regarding community banks.
      2     Communicated with the Chairman, Vice Chairman, FDIC’s internal Director, other FDIC Board
            Members, the Chief Financial Officer, CIO, and other senior FDIC officials through the IG’s regularly
            scheduled meetings with them and through other forums.
      3     Participated in numerous outreach efforts with such external groups as the Federal Audit Executive
            Council, the American Conference Institute, Department of Justice, American Institute of Certified Public
            Accountants, and the Federal Financial Institutions Examination Council to provide general information
            regarding the OIG and share perspectives on issues of mutual concern and importance to the financial
            services industry.
      4     Held quarterly meetings with FDIC Division Directors and other senior officials to keep them apprised of
            ongoing OIG reviews, results, and planned work.

      5     Kept RMS, DRR, the Legal Division, and other FDIC program offices informed of the status and results
            of our investigative work impacting their respective offices. This was accomplished by notifying FDIC
            program offices of recent actions in OIG cases and providing Office of Investigations’ quarterly reports
            to RMS, DRR, the Legal Division, and the Chairman’s Office outlining activity and results in our cases
            involving closed and open banks. Coordinated closely with the Legal Division on matters pertaining to
            enforcement actions and professional liability cases.


42
                                                                                                  Strategic Goal 6




6    Participated at FDIC Audit Committee meetings to present the results of completed audits, evaluations,
     and related matters for consideration by Committee members.
7    Reviewed eight proposed or revised corporate policies related to, for example, the FDIC’s procedures
     for the owned real estate asset litigation review group, procedures for the Franchise and Asset Market-
     ing Branch’s asset litigation, and the Corporation’s professional dues reimbursement program. Made
     suggestions to increase clarity and specificity of these and other draft policies. Provided more substantive
     comments on the FDIC’s proposed directive on the probationary or trial period of new supervisors and
     managers.
8    Supported the IG community by having the IG serve as Chair of the CIGIE Audit Committee and coor-
     dinating the activities of that group, including advising on the introductory auditor training and oversight
     of the community’s audit peer review process and scheduling; attending monthly CIGIE meetings and
     participating in Investigations Committee, Council of Counsels to the IGs, and Professional Development
     Committee meetings; and commenting on various legislative matters through the Legislation Committee.

9    Communicated with various representatives of the OIGs of the federal banking regulators and others
     (FRB, Department of the Treasury, National Credit Union Administration, Securities and Exchange
     Commission, Farm Credit Administration, Commodity Futures Trading Commission, Federal Housing
     Finance Agency, Export-Import Bank, SIGTARP, Department of Housing and Urban Development) to
     discuss audit and investigative matters of mutual interest and leverage knowledge and resources. Partici-
     pated on CIGFO, as established by the Dodd-Frank Act, with the IGs from most of the above-named
     agencies, a Council on which the FDIC IG served as Vice Chair.
10   Responded to Senators Charles Grassley and Tom Coburn’s biannual request for a report on all closed
     investigations, evaluations, and audits conducted by our office that were not disclosed to the public. Our
     response covered the period October 2012 through March 2013.
11   Responded to the annual request from the Chairman, Committee on Oversight and Government Reform,
     U.S. House of Representatives, for information on open and unimplemented OIG recommendations made
     to the FDIC.
12   Coordinated with FDIC parties on matters regarding the Whistleblower Protection Act of 2012, to ensure
     that the Corporation’s related training and informational materials are adequate.
13   Coordinated with the Department of Justice and U.S. Attorneys’ Offices throughout the country in
     the issuance of press releases announcing results of cases with FDIC OIG involvement and routinely
     informed the FDIC’s Office of Communications and Chairman’s office of such releases.
14   Formed part of the CIGFO working group conducting work related to the Financial Stability Oversight
     Council’s process for designating financial market utilities as systemically important.
15   Provided input to the CIGFO annual report, outlining the work the FDIC OIG had completed during the
     year related to the financial services industry and issues of concern to the Financial Stability Oversight
     Council.
16   Convened meetings of the OIG’s Workplace Excellence Council, in keeping with the Corporation’s
     model of the same. Explored means of ensuring positive staff working relationships and excellence in the
     OIG’s internal operations and activities.




                                                                                                                    43
Strategic Goal 6




      Enhance OIG Risk Management Activities
      1    Began risk-based OIG planning efforts for audits, evaluations, and investigations for fiscal year 2014 and
             beyond, taking into consideration the goals of, and risks to, FDIC corporate programs and operations and
             those risks more specific to the OIG. Used the OIG conference as a forum to solicit risk perspectives of
             senior FDIC officials to aid in planning OIG work for the fiscal year.
      2      Attended FDIC Board Meetings, corporate planning and budget meetings, and other senior-level manage-
             ment meetings to monitor or discuss emerging risks at the Corporation and tailor OIG work accordingly.
      3      Assessed OIG controls in support of the annual assurance letter to the FDIC Chairman, under which the
             OIG provides assurance that it has made a reasonable effort to meet the internal control requirements of
             the Federal Managers’ Financial Integrity Act, Office of Management and Budget A-123, and other key
             legislation.
      4      Continued to monitor the management and performance challenge areas that we identified at the FDIC, in
             accordance with the Reports Consolidation Act of 2000 as we conducted audits, evaluations, and inves-
             tigations: Implementing New Systemic Resolution Responsibilities, Resolving Failed Institutions and
             Managing Receiverships, Maintaining the Viability of the DIF, Ensuring Institution Safety and Soundness
             Through an Effective Examination and Supervision Program, Protecting and Educating Consumers and
             Ensuring an Effective Compliance Program, and Effectively Managing the FDIC Workforce and Other
             Corporate Resources.
      5      Met with representatives of the Government Accountability Office to provide preliminary perspectives on
             the risk of fraud at the FDIC. We did so in response to the Government Accountability Office’s respon-
             sibility under Statement of Auditing Standards No. 99, Consideration of Fraud in Financial Statement
             Audits.




44
                                                                                 Cumulative Results (2-year period)




    Nonmonetary Recommendations
    October 2011 – March 2012                                                    17
    April 2012 – September 2012                                                  21
    October 2012 – March 2013                                                    27
    April 2013 – September 2013                                                  15




Products Issued and Investigations Closed

                                                                                      50
                                                                                      45
L E G E N D
                                                                                      40
                                                                  39   38
•   10/11 - 03/12                                                                     35
                                                            34
•   04/12 - 09/12                                                           31        30
•   10/12 - 03/13                                                                     25
•   04/13 - 09/13                                                                     20
                                                                                      15
                                13                                                    10
                                     7   7
                                             5
                                                                                       5
                                                                                       0

                            MLRs, Audits &                 Investigations
                             Evaluations


Fines, Restitution, and Monetary Recoveries
Resulting from OIG Investigations (in millions)
                                                                                      600
L E G E N D
                                                                 504
                                                                                      500
•   10/11 - 03/12
                                     403.3
•   04/12 - 09/12                                                                     400
•   10/12 - 03/13
•   04/13 - 09/13                                                                     300
                                             240.9

                                                     172                              200

                                                                                      100

                                                                                           0




                                                                                                                 45
     Fiscal Year 2013 Performance Report
         This performance report presents an overview of our performance compared to our Fiscal Year 2013
     annual performance goals in our Business Plan. It provides a statistical summary of our qualitative
     goals as well as a narrative summary of performance results by Strategic Goal. It also shows our results
     in meeting a set of quantitative goals that we established for the year.
         We formulated six strategic goals, as shown in the table below. Each of our strategic goals, which
     are long-term efforts, has annual performance goals and associated assignments that represent our
     initiatives in Fiscal Year 2013 toward accomplishing the strategic goal. The table reflects the number of
     performance goals that were Met, Substantially Met, or Not Met. This determination is made through
     ongoing discussions at the OIG Executive level and a qualitative assessment as to the impact and value
     of the audit, evaluation, investigation, and other work of the OIG supporting these goals throughout the
     year.
        As shown in the table, we met or substantially met 95 percent of our performance goals in Fiscal
     Year 2013. A discussion of our work in each of the goal areas begins on page 48.



              Fiscal Year 2013 Annual Performance Goal Accomplishment (Number of Goals)
                                                                     Performance Goals
                     Strategic Goals                              Substantially
                                                        Met                        Not Met      Total
                                                                      Met
      Supervision: Assist the FDIC to Ensure the
                                                           2                                       2
      Nation’s Banks Operate Safely and Soundly
      Insurance: Help the FDIC Maintain the
                                                                       1                           1
      Viability of the Insurance Fund
      Consumer Protection: Assist the FDIC to
      Protect Consumer Rights and Ensure                               2             1             3
      Customer Data Security and Privacy
      Receivership Management: Help Ensure that
      the FDIC Efficiently and Effectively Resolves
                                                           2                                       2
      Failing Banks and Manages
      Receiverships
      FDIC Resources Management: Promote
      Sound Governance and Effective Stewardship
                                                           4           2                           6
      and Security of Human, Financial, IT, and
      Physical Resources
      OIG Resources Management: Build and
      Sustain a High-Quality OIG Staff, Effective
                                                           3           2                           5
      Operations, OIG Independence, and Mutually
      Beneficial Working Relationships
      Total                                               11           7             1            19
      Percentage                                          58          37             5          100




46
                                       Quantitative Performance Measures 2013
                    Performance Measure                          FY 2013 Target       FY 2013 Actual            Status
  Financial Benefit Return   a
                                                                       100%                2199%                 Met
  Past Recommendations Implementedb                                    95%                  100%                 Met
  Complete 100 Percent of Audit/Evaluation Assign-                     100%                 100%                 Met
  ments Required by Statute by the Required Date
  Audit/Evaluation Assignments Completed Within 30                     90%                  58%               Not Met
  Days of Established Final Report Milestone
  Audit/Evaluation Assignments Completed Within 15                     90%                  75%               Not Met
  Percent of Established Budget
  Investigation Actionsc                                                200                  569                 Met
  Investigations Accepted for Prosecution Resulting in                 85%                  62%               Not Met
  Convictions, Pleas, and/or Settlements
  Investigations Referred for Prosecution or Closed                    85%                  87%                  Met
  Within 6 Months of Opening Case
  Closing Reports Issued to Management Within 30                       100%                 65%               Not Met
  Days of Completion of All Judicial Actions
    	 Includes all financial benefits, including audit-related questioned costs; recommendations for better use of
      a

			    funds; and investigative fines, restitution, settlements, and other monetary recoveries divided by the OIG’s
			    total fiscal year budget obligations.
   b
     	 Fiscal year 2011 recommendations implemented by fiscal year-end 2013.
   c
    	 Indictments, convictions, informations, arrests, pre-trial diversions, criminal non-monetary sentencings,
			 monetary actions, employee actions, and other administrative actions.



          Comment on Overall Performance Results:                  areas. For example, we were unable to fully meet
      In reviewing our qualitative performance results,            our timeliness and cost goals for the conduct of
      we note that the lingering demands of our H.R.               audits and evaluations. This was in part attribut-
      2056 workload and a needed focus on IT secu-                 able to the necessary shift in resources to perform
      rity and governance matters, along with several              the equivalent of eight audit assignments in
      unanticipated requests during the year precluded             response to the H.R. 2056 legislation, an unfore-
      us from fully meeting certain of our goals. Since            seen IT security and governance matter that we
      January 2013, however, we have begun to resume               addressed, and a request from the FDIC Chairman
      more discretionary audit and evaluation coverage             to review the FDIC’s implementation of systemic
      of identified areas of risk at the FDIC and will             resolution responsibilities, that, taken together, had
      continue to do so during the upcoming fiscal year.           an impact on timeframes and costs for previously
      With respect to quantitative results, we are pleased         planned work. We also did not fully meet certain
      to have completed our statutorily required work on           investigative goals and plan to evaluate why this
      time, including our work in response to H.R. 2056.           is so. In light of significant changes in the FDIC’s
      As for work under the Federal Information Secu-              and the OIG’s post-crisis operating environ-
      rity Management Act, we coordinated with FDIC                ments, we intend to re-evaluate all of our goals
      management to meet the time frames prescribed                and results as part of our 2014 strategic planning
      by the Act for transmission of our report and the            efforts and hope to be able to better meet the
      Corporation’s to the Office of Management and                performance measures that we establish.
      Budget. We did, however, fall short in several



                                                                                                                            47
                                                            include 131 indictments, 139 convictions, and
     Strategic Goal 1 – Supervision: Assist the
                                                            nearly $676 million in fines, restitution, and other
     FDIC to Ensure the Nation’s Banks Operate
                                                            monetary benefits. Particularly noteworthy results
     Safely and Soundly
                                                            from our casework include the pleas and sentenc-
         Our work in helping to ensure that the nation’s    ings of a number of former senior bank officials
     banks operate safely and soundly takes the form of     and bank customers involved in fraudulent activi-
     audits, investigations, evaluations, and extensive     ties that undermined the institutions and, in some
     communication and coordination with FDIC divi-         cases, contributed to the institutions’ failure. For
     sions and offices, the Department of Justice, law      example, in a case involving the largest bank fail-
     enforcement agencies, other financial regulatory       ure in Virginia and losses to the Deposit Insurance
     OIGs, and banking industry officials. During the       Fund of more than $333 million, we reported a
     reporting period, we completed several projects        number of successful actions during the past year.
     involving supervision issues. One of those was         A Hampton Roads businessman was sentenced to
     in response to Public Law 112-88, also known as        168 months in prison and 3 years of supervised
     H.R. 2056. This law required that we conduct a         release for carrying out elaborate and sophisticated
     comprehensive study on the impact of the failure of    fraud schemes that contributed to the Bank of the
     insured depository institutions and submit a report,   Commonwealth’s failure and defrauded investors
     along with recommendations, to the Congress.           and the government of millions of dollars. He
     We issued our report on January 3, 2013, and the       was ordered to pay restitution of more than $32
     IG testified before the House Financial Services       million, joint and several, with his co-defendant,
     Committee, Subcommittee on Financial Institu-          a business partner who had pleaded guilty earlier
     tions and Consumer Credit, in March 2013 and           to conspiracy to commit wire fraud and bank
     again before the Senate Committee on Banking,          fraud. The partner was sentenced to 138 months
     Housing, and Urban Affairs in June 2013 to             in prison. In the same case, following a 10-week
     convey the results of that comprehensive effort and    trial, three top bank executives and a favored
     the seven recommendations we made. With respect        borrower of the Bank of the Commonwealth were
     to supervision, we addressed aspects of FDIC           found guilty for their roles in a scheme to mask
     examiners’ review of an institution’s lending and      non-performing assets for their own benefit and
     loan review functions, capital adequacy, allow-        to the detriment of the bank. Three of the four had
     ance for loan and lease loss estimates, appraisal      received stiff sentences as of the end of the fiscal
     programs, loan workouts, and the supervisory           year. The former executive vice president and
     enforcement actions that examiners pursue to           commercial loan officer was sentenced to 17 years
     address identified deficiencies. Another of our        in prison and ordered to pay restitution of nearly
     reports in support of this goal area closely exam-     $332 million, joint and several with co-conspira-
     ined acquisition, development, and construction        tors. The CEO’s son was sentenced to 8 years in
     lending, believed to be a contributing factor to       prison and ordered to pay $2.4 million in restitu-
     institution failures, when not accompanied by a        tion to the FDIC and forfeit over $4 million in
     proper control environment. We also completed          proceeds from the scheme. The favored borrower,
     25 failure reviews of institutions whose failures      a real estate developer, was sentenced to more than
     caused losses to the Deposit Insurance Fund of less    4 years in prison and ordered to pay restitution to
     than the threshold of $150 million if failing after    the FDIC of nearly $5 million.
     January 1, 2012 and determined whether unusual             Also of note during the performance period
     circumstances existed that would warrant an            were several successful mortgage fraud cases. In
     in-depth review in those cases.                        one case, the lead figure, a former bank employee,
         With respect to investigative work, as a result    was sentenced to 97 months in prison and ordered
     of cooperative efforts with U.S. Attorneys through-    to pay $11.6 million in restitution. Yet another
     out the country, numerous individuals were pros-       scheme involved multiple attorneys, loan officers
     ecuted for financial institution fraud, and we also    from a mortgage brokerage firm, a real estate title
     successfully combated a number of mortgage fraud       closer, and numerous straw buyers, many of whom
     schemes. Our efforts in support of bank fraud,         are now serving prison terms and required to pay
     mortgage fraud, and other financial services work-     restitution. In another case, a realtor was sentenced
     ing groups also supported this goal. Overall results   to 37 months in prison to be followed by 5 years
48
of supervised release and ordered to pay restitu-      with OIG counterparts in planning an assignment
tion of nearly $6 million. A mortgage broker was       to examine the progress that the prudential regula-
also sentenced to 12 months in prison, 12 months       tors and the Consumer Financial Protection Bureau
of home confinement, and ordered to pay nearly         have made in establishing coordination for the
$5 million in restitution for her role in defrauding   many consumer protection responsibilities that the
multiple financial institutions.                       various parties carry out.
    The Office of Investigations also continued its         Our Office of Investigations also supports
close coordination and outreach with the Division      consumer protection through its work. For
of Risk Management Supervision (RMS), the              example, during the past year, as an outcome of
Division of Resolutions and Receiverships, and         one of our investigations, an individual posing as
the Legal Division by way of attending quarterly       an FDIC “broker” was sentenced to 144 months
meetings, regional training forums, and regularly      in prison and ordered to pay nearly $6 million in
scheduled meetings with RMS and the Legal              restitution to his victims for his role in a Ponzi
Division to review Suspicious Activity Reports         fraud scheme through which he marketed and sold
and identify cases of mutual interest. We have         fictitious FDIC-insured certificates of deposit to
strengthened our process for regular coordina-         unsuspecting senior citizen investors. In another
tion of enforcement action matters with the Legal      case, a Houston businessman pleaded guilty for
Division and RMS, a step that has proven to be         his role in a fraudulent investment scheme to steal
mutually beneficial.                                   about $1 million from elderly investors. As part of
                                                       the scheme, his salesmen sold unregistered securi-
Strategic Goal 2 – Insurance:	 Help the                ties—collateral debt obligations—falsely claiming
FDIC Maintain the Viability of the Insur-              they were fully insured by either the FDIC or
ance Fund                                              Lloyds of London.
    We did not conduct specific assignments to             Also of note, our Electronic Crimes Unit
address this goal area during the performance          responded to instances where fraudulent emails
period. However, our audit and evaluation work         purportedly affiliated with the FDIC were used to
in support of Goal 1 fully supports this goal, as      entice consumers to divulge personal information
does the investigative work highlighted above. In      and/or make monetary payments. Working with
both cases, our work can serve to prevent future       the Corporation’s Division of Information Tech-
losses to the insurance fund by way of findings and    nology, our investigators seek to protect consumers
observations that can help to prevent future fail-     by dismantling such schemes. In further support
ures, and the deterrent aspect of investigations and   of consumer protection, the OIG also continued to
the ordered restitution that may help to mitigate      respond to a number of inquiries from the public,
an institution’s losses and losses to the Deposit      received both through our Hotline and through
Insurance Fund.                                        other channels. We addressed about 330 such
                                                       inquiries during the past year.
Strategic Goal 3 – Consumer Protection:	
Assist the FDIC to Protect Consumer Rights             Strategic Goal 4 – Receivership Manage-
and Ensure Customer Data Security and                  ment:	 Help Ensure that the FDIC Effi-
Privacy                                                ciently and Effectively Resolves Failing
    We did not devote audit or evaluation resources    Banks and Manages Receiverships
to specific consumer protection matters during the         We completed several assignments in this goal
performance period because for the most part, we       area during the past year. That is, we conducted an
continued to devote those resources to completing      audit of the Division of Resolutions and Receiv-
H.R. 2056 work and focusing on FDIC activities         erships’ controls for managing, marketing, and
in the resolution and receivership realms. As of       disposing of owned real estate and made recom-
the end of the performance period, however, we         mendations to enhance control activities for these
had ongoing efforts for two assignments in this        processes. Given the Corporation’s responsibilities
area. First, we are examining the FDIC’s actions       for billions of dollars in owned real estate, strong
to address consumer protection violations and          controls are vital to successful management and
deficiencies. Additionally, we are coordinating        disposition activities. Additionally, we conducted
                                                                                                              49
     an audit of the Division of Resolutions and            recommendations to improve the effectiveness
     Receiverships’ resolution planning, determining        of the FDIC’s information security program
     that the FDIC had established controls to identify     controls. With respect to the governmentwide
     and manage risks associated with the resolution of     financial reporting system, we verified that the
     failing depository institutions. We also completed     FDIC’s summary general ledger information
     work on a structured sale involving MountainView       agreed with summary information entered into
     Public Private Investment I, LLC, and single-fami-     the reporting system for the fiscal year ended
     ly residential assets, wherein we did not identify     September 30, 2012. More recently, we issued
     any concerns with regard to MountainView’s             the results of our review of the FDIC’s compli-
     complying with the agreement but did recommend         ance with energy management requirements and
     actions to enhance MountainView’s controls.            made eight recommendations to strengthen the
         H.R. 2056 work covering this goal area             FDIC’s energy efficiency measures and programs,
     included an assessment of multiple aspects of the      and its compliance with applicable legislation
     FDIC’s use of shared-loss agreements from the          and reporting requirements. We also completed a
     borrowers’ and institutions’ perspectives, includ-     review of the FDIC’s controls over business-unit
     ing the impact on the rate of loan modifications       led application development activities. In that
     and adjustments, the impact of the availability of     review we highlighted risks presented by such
     credit, and the policies and procedures for termi-     activities and made three recommendations to
     nating the agreements. Other matters reviewed as       enhance related risk management procedures and
     part of H.R. 2056 related to private investment in     IT governance processes.
     insured depository institutions and the policies and        In connection with the Dodd-Frank Act, we
     procedures governing such activity.                    issued the results of the fifth and sixth coordinated
         We would also note that in connection with the     reviews of the status of the implementation activi-
     FDIC’s new resolution authority for systemically       ties of the Joint Implementation Plan prepared by
     important financial institutions, the Dodd-Frank       the Board of Governors of the Federal Reserve
     Act requires that the FDIC OIG conduct, super-         System, the FDIC, the Office of the Comptroller of
     vise, and coordinate audits and investigations of      the Currency, and the Office of Thrift Supervision.
     the liquidation of any covered financial company           At the end of the reporting period, we were
     by the Corporation as receiver under Title II of the   undertaking work in the areas of information
     Act. We continued taking steps to ensure we are        technology project management, controls for safe-
     prepared for such an eventuality.                      guarding sensitive information submitted under the
         From an investigative standpoint, our Elec-        Dodd-Frank Act, and our 2013 audit of the FDIC’s
     tronic Crimes Unit continued to support investiga-     information security management.
     tive activities related to closed banks by providing       We promoted integrity in FDIC internal
     computer forensic support in ongoing fraud             operations through ongoing OIG Hotline and
     investigations.                                        other referrals and coordination with the FDIC’s
                                                            Divisions and Offices, including corporate ethics
     Strategic Goal 5 – Resources Manage-                   officials, as warranted.
     ment:	 Promote Sound Governance
     and Effective Stewardship and Secu-                    Strategic Goal 6 – OIG Resources Manage-
     rity of Human, Financial, IT, and Physical             ment: Build and Sustain a High-Quality
     Resources                                              Staff, Effective Operations, OIG Indepen-
         We completed assignments addressing various        dence, and Mutually Beneficial Working
     FDIC internal activities during the year. We issued    Relationships
     the results of a billing review of Lockheed Martin         To ensure effective and efficient management
     in which we identified $740,784 in questioned          of OIG resources, among other activities, we
     costs and made additional recommendations to           permanently filled our Assistant Inspector General
     strengthen contract administration and oversight       for Management position. We subsequently
     management controls and practices. We completed        focused on a number of initiatives to monitor and
     our 2012 work in response to the Federal Infor-        track OIG spending, particularly costs involved
     mation Security Management Act and made 14             in travel and procurement card spending, and to
50
explore options for better systems to house OIG       Advisory Council. Senior OIG executives were
policies and procedures and to capture and track      speakers at a number of professional organiza-
information on our investigative cases. We also       tion and government forums, for example those
provided our FY 2014 budget to the FDIC Chair-        sponsored by the American Institute of Certi-
man and to cognizant Congressional committees.        fied Public Accountants, American Conference
This budget reflects $34.6 million to support 130     Institute, Maryland Association of Certified Public
full-time equivalents, no change from our prior       Accountants, Georgetown University Public
year request.                                         Policy Institute, Department of Justice, FDIC
   We conducted several internal quality assess-      divisions and offices, and international organiza-
ment projects to ensure quality work, and devel-      tions sponsored by the State Department. The OIG
oped our Quality Assurance Plan for October           participated in corporate diversity events and on
2013-March 2016. We oversaw contracts with            the Chairman’s Diversity Advisory Council. We
qualified firms to provide audit and evaluation       continued to use our public inquiry intake system
services to the OIG to supplement our efforts and     and maintained and updated the OIG Web site to
provide additional subject-matter expertise. We       respond to the public and provide easily accessible
continued use of the Inspector General feedback       information to stakeholders.
form for audits and evaluations that focuses on
overall assignment quality elements, including            In the area of risk management, in connection
time, cost, and value.                                with SAS 99 and the annual audit of the FDIC’s
                                                      financial statements, we provided comments on
    We encouraged individual growth through
                                                      the risk of fraud at the FDIC to the U.S. Govern-
professional development by supporting indi-
viduals in our office pursuing certified public       ment Accountability Office. We provided the
accounting and other professional certifications.     OIG’s 2012 assurance statement to the FDIC
We also employed college interns on a part-time       Chairman regarding our efforts to meet internal
basis to assist us in our work. We supported          control requirements. We also participated regu-
OIG staff members attending graduate schools          larly at meetings of the National Risk Committee
of banking and other courses to further their         and later the new Enterprise Risk Committee to
expertise and knowledge of the complex issues in      further monitor risks at the Corporation and tailor
the banking industry and supported staff taking       OIG work accordingly. We undertook a review
FDIC leadership training courses. In an effort to     of risks in corporate divisions and offices as part
ensure a strong cadre of OIG staff, we reinstituted   of planning for FY 2013 and FY 2014. We shared
our mentoring program to partner mentors and          OIG perspectives on enterprise risks with the
mentorees to share experiences, knowledge, and        Corporation’s Chief Risk Officer and others in the
individual challenges.                                Corporation. In keeping with the Reports Consoli-
    Our office continued to foster positive           dation Act of 2000, we provided our assessment of
stakeholder relationships by way of Inspector         management and performance challenges facing
General and other OIG executive meetings with         the Corporation for inclusion in its annual report
senior FDIC executives; presentations at Audit        and monitored and/or pursued assignments in
Committee meetings; congressional interaction;        the areas identified as challenges throughout the
coordination with financial regulatory OIGs, other    year: Implementing New Systemic Resolution
members of the Inspector General community,           Responsibilities, Resolving Failed Institutions
other law enforcement officials, and the U.S.         and Managing Receiverships, Maintaining the
Government Accountability Office. The Inspec-         Viability of the Deposit Insurance Fund, Ensur-
tor General served in key leadership roles as the     ing Institution Safety and Soundness Through an
Chair of the Council of the Inspectors General on
                                                      Effective Examination and Supervision Program,
Integrity and Efficiency Audit Committee; Vice
                                                      Protecting and Educating Consumers and Ensur-
Chair of the Council of Inspectors General on
                                                      ing an Effective Compliance Program, and
Financial Oversight, as established by the Dodd-
                                                      Effectively Managing the FDIC Workforce and
Frank Act; and as a Member of the Comptroller
General’s Advisory Council on Government              Other Corporate Resources.
Auditing Standards and Chair of the Green Book
                                                                                                            51
                              Significant Outcomes—FY 2013
                           (October 1, 2012– September 30, 2013)
     Audit and Evaluation Reports Issued                                          12
     Questioned Costs                                                       $740,784
     Nonmonetary Recommendations                                                  42
     Investigations Opened                                                        70
     Investigations Closed                                                        69
     OIG Subpoenas Issued                                                         18
     Judicial Actions:
     	Indictments/Informations                                                   131
     	Convictions                                                                139
     	Arrests                                                                     56
     OIG Investigations Resulted in:
     	   Fines of                                                            $62,000
     	   Restitution of                                                  $642,521,063
     	   Asset Forfeitures of                                             $33,343,339
     	Total                                                              $675,926,402
     Cases Referred to the Department of Justice (U.S. Attorney)                  65
     Cases Referred to FDIC Management                                             1
     Proposed Regulations and Legislation Reviewed                                17
     Proposed FDIC Policies Reviewed                                              16
     Responses to Requests Under the Freedom of Information Act (FOIA)            18
     or Privacy Act (including one FOIA appeal)




52
Reporting Requirements
Index of Reporting Requirements - Inspector General Act of 1978, as amended


Reporting Requirements                                                                                                        Page

Section 4(a)(2): Review of legislation and regulations                                                                          54

Section 5(a)(1): Significant problems, abuses, and deficiencies                                                             11-37

Section 5(a)(2): Recommendations with respect to significant problems, abuses, and deficiencies                             11-37

Section 5(a)(3): Recommendations described in previous semiannual reports on which corrective
                                                                                                                                55
action has not been completed

Section 5(a)(4): Matters referred to prosecutive authorities                                                                    10

Section 5(a)(5) and 6(b)(2): Summary of instances where requested information was refused                                       57

Section 5(a)(6): Listing of audit reports                                                                                       56

Section 5(a)(7): Summary of particularly significant reports                                                                11-37

Section 5(a)(8): Statistical table showing the total number of audit reports and the total dollar value of
                                                                                                                                56
questioned costs

Section 5(a)(9): Statistical table showing the total number of audit reports and the total dollar value of
                                                                                                                                57
recommendations that funds be put to better use

Section 5(a)(10): Audit recommendations more than 6 months old for which no management decision
                                                                                                                                57
has been made

Section 5(a)(11): Significant revised management decisions during the current reporting period                                  57

Section 5(a)(12): Significant management decisions with which the OIG disagreed                                                 57

  Note: Evaluation report statistics are included in this report as well, in accordance with the Inspector General Reform Act of 2008.




                                                                                                                                         53
     Appendix 1:
     Information Required by the Inspector General Act
     of 1978, as Amended

     Review of Legislation and Regulations
         The FDIC OIG’s review of legislation and regulations during the past 6-month period involved the
     following activities:
         •	 By way of the Legislation Committee of CIGIE, Counsel’s Office commented on H.R. 1163, the
     	      Federal Information Security Amendments Act 2013, which passed the House on April 16, 2013, and
     	      H.R. 1468, the Strengthening and Enhancing Cybersecurity by Using Research, Education, Informa-
     	      tion, and Technology Act of 2013 (SECURE IT), which was introduced on April 10, 2013. The
     	      comments dealt with the importance of retaining annual Inspector General evaluations of agency
     	      information security, in accordance with the Federal Information Security Management Act (FISMA)
     	       (Title III of Public Law 107-347).
         •	 In connection with the aforementioned bills, Counsel’s Office joined in advocating for revisions to the
     	      Freedom of Information Act so as to allow agencies and their IGs to publicly disclose nonsensitive
     	      information in the IGs’ FISMA reports and to withhold sensitive information in those reports from
     	      public disclosure.
         •	 Regarding S. 994, the Digital Accountability and Transparency Act of 2013, Counsel’s Office, in
     	      conjunction with members of the CIGIE Audit Committee, drafted comments that dealt with the scope
     	      and timing of OIG work in connection with agency expenditures that would be required under the Act.
         •	 Counsel’s Office considered the effects of two Acts on the FDIC OIG, in particular. In the first case,
     	      the Vacancies Reform Act of 1998 (5 U.S.C. § 3345-3349d) is the federal law that provides rules for
     	      filling vacancies that must be filled by Presidential Appointment with Senate confirmation appointments.
     	      The Act is the exclusive means by which a vacant Presidential Appointment with Senate confirmation
     	      position is filled by a person designated as the “Acting” official. Given the departure of FDIC IG Jon
     	      Rymer to become the IG at the Department of Defense, Counsel’s Office guided the selection of the
     	      Principal Deputy IG to become the Acting IG. Second, in light of the lapse in appropriations that
     	      ultimately impacted the FDIC OIG, Counsel’s Office examined provisions in the Antideficiency Act.
     	      This Act prohibits federal agencies from obligating or expending federal funds in advance or in excess
     	      of an appropriation, apportionment, or certain administrative subdivisions of those funds (31 U.S.C. §§
     	      1341, 1517(a)). The Act also prohibits agencies from accepting voluntary services (31 U.S.C. §§ 1342).




54
Table I: Significant Recommendations from Previous Semiannual Reports on Which
	        Corrective Actions Have Not Been Completed
    This table shows the corrective actions management has agreed to implement but has not completed, along
with any associated monetary amounts. In some cases, corrective actions may be different from the initial
recommendations made in the audit reports. However, the OIG has agreed that the planned actions meet the
intent of the initial recommendations. The information in this table is based on (1) information supplied by the
FDIC’s Corporate Management Control (CMC), Division of Finance, and (2) the OIG’s determination of closed
recommendations. Recommendations are closed when (a) CMC notifies the OIG that corrective actions are
complete or (b) in the case of recommendations that the OIG determines to be particularly significant, after the
OIG confirms that corrective actions have been completed and are responsive. CMC has categorized the status
of these recommendations as follows:
Management Action in Process: (two recommendations from one report)
    Management is in the process of implementing the corrective action plan, which may include modifications
to policies, procedures, systems, or controls; issues involving monetary collection; and settlement negotiations in
process.




                                                   Significant              Brief Summary of Planned Corrective
  Report Number, Title, and Date                   Recommendation           Actions and Associated Monetary
                                                   Number                   Amounts

  Management Action In Process

  AUD-13-003                                                10              Coordinate with the FDIC’s divisions
                                                                            to (a) update the expected comple-
  Independent Evaluation of the FDIC’s
                                                                            tion dates and remediation strate-
  Information Security Program – 2012
                                                                            gies for all security vulnerabilities in
  November 5, 2012                                                          OpenFISMA that are past due and
                                                                            (b) develop an approach for effec-
                                                                            tively monitoring, prioritizing, and
                                                                            resolving security vulnerabilities
                                                                            in OpenFISMA that are past due.

                                                            14              Coordinate with the FDIC’s divisions to
                                                                            establish an implementation schedule
                                                                            and periodic progress reporting for
                                                                            applying the Outsourced Information
                                                                            Service Provider Assessment Meth-
                                                                            odology to the FDIC’s outsourced
                                                                            information service providers.




                                                                                                                       55
     Table II: Audit and Evaluation Reports Issued by Subject Area

                       Audit/Evaluation Report                              Questioned Costs         Funds Put to
      Number and Date                          Title                      Total     Unsupported       Better Use
     Resolution and Receivership Management
     AUD-13-006              The FDIC’s Structured Transaction with
     September 6, 2013       MountainView Public Private Invest-
                             ment I, LLC
     EVAL-13-004             The FDIC’s Resolution Planning Process
     September 12, 2013
     Resources Management
     EVAL-13-003             The FDIC’s Compliance with Energy
     August 19, 2013         Management Requirements
     AUD-13-007              The FDIC’s Controls over Business
     September 11, 2013      Unit-Led Application Development
                             Activities
     AUD-13-008              Status of the Transfer of Office of Thrift
     September 26, 2013      Supervision Functions
     Totals for the Period




     Table III: Audit and Evaluation Reports Issued with Questioned Costs

                                                                                        Questioned Costs
                                                                Number
                                                                                  Total           Unsupported
     A.	 For which no management decision has been                    0            $0                  $0
     	 made by the commencement of the reporting
     	period.
     B. Which were issued during the reporting period.                0            $0                  $0
     Subtotals of A & B                                              0             $0                  $0
     C.	 For which a management decision was made                     0            $0                  $0
     	 during the reporting period.
     	 (i) dollar value of disallowed costs.                          0            $0                  $0
     	 (ii) dollar value of costs not disallowed.                     0            $0                  $0
     D.	 For which no management decision has been                    0            $0                  $0
     	 made by the end of the reporting period.
     	 Reports for which no management decision                       0            $0                  $0
     	 was made within 6 months of issuance.




56
Table IV: Audit and Evaluation Reports Issued with Recommendations for                                	
	        Better Use of Funds

                                                              Number             Dollar Value
    A.	 For which no management decision has been                  0                   $0
    	 made by the commencement of the reporting
    	period.
    B. Which were issued during the reporting period.              0                   $0
    Subtotals of A & B                                             0                   $0
    C.	 For which a management decision was made                   0                   $0
    	 during the reporting period.
    	 (i) dollar value of recommendations                          0                   $0
    		 that were agreed to by management.
    	       - based on proposed management action                  0                   $0
    	       - based on proposed legislative action                 0                   $0
    	 (ii) dollar value of recommendations                         0                   $0
    		 that were not agreed to by management.
    D.	 For which no management decision has been                  0                   $0
    	 made by the end of the reporting period.
    	 Reports for which no management decision                     0                   $0
    	 was made within 6 months of issuance.



Table V: Status of OIG Recommendations Without Management Decisions
        During this reporting period, there were no recommendations more than 6 months old
	       without management decisions.

Table VI: Significant Revised Management Decisions
        During this reporting period, there were no significant revised management decisions.

Table VII: Significant Management Decisions with Which the OIG Disagreed
        During this reporting period, there were no significant management decisions with which the
	       OIG disagreed.

Table VIII: Instances Where Information Was Refused
        During this reporting period, there were no instances where information was refused.




                                                                                                          57
Appendix 2: Information on Failure Review Activity
(required by the Dodd-Frank Wall Street Reform and Consumer Protection Act)


 FDIC OIG Review Activity for the Period April 1, 2013 through September 30, 2013 (for failures causing losses
 to the DIF of less than $150 million from January 1, 2012 through December 31, 2013)
                                          Estimated                                             Unusual
                                           Loss to        Grounds Identified by the
                                                                                             Circumstances   Reason for   Due Date
                              Closing        DIF           State Bank Supervisor
     Institution Name                                                                          Warranting     In-Depth     or Date
                               Date                          for Appointing the
                                           (Dollars in                                          In-Depth       Review      Issued
                                                              FDIC as Receiver
                                            millions)                                           Review?
 Failure Review Activity – Updated from Previous Semiannual Report
 Reviews Completed During the Reporting Period
 The Royal Palm Bank of        7/20/12       $13.5       The bank’s capital accounts              No            N/A         N/A
 Florida (Naples, Florida)                               had been exhausted by losses
                                                         and there was no immediate
                                                         prospect for recapitalization.
 Heartland Bank                7/20/12        $3.1       The bank was critically under-           No            N/A         N/A
 (Leawood, Kansas)                                       capitalized under Prompt Correc-
                                                         tive Action.
 Jasper Banking Company        7/27/12       $58.1       The bank was critically under-           No            N/A         N/A
 (Jasper, Georgia)                                       capitalized and unable to meet
                                                         the requirements of a consent
                                                         order.
 Waukegan Savings Bank         8/3/12        $19.8       The bank’s capital was less than         No            N/A         N/A
 (Waukegan, Illinois)                                    the minimum acceptable, the
                                                         bank was in an unsound condi-
                                                         tion, and the bank was conduct-
                                                         ing its business in an unsafe and
                                                         unsound manner.
 First Commercial Bank        9/7/2012       $65.9       The bank was in an unsafe and            No            N/A         N/A
 (Bloomington, Minnesota)                                unsound condition, and it would
                                                         be inappropriate and contrary to
                                                         the public interest to allow the
                                                         bank to continue in business.
 Excel Bank                   10/19/12       $40.9       The bank was critically under-           No            N/A         N/A
 (Sedalia, Missouri)                                     capitalized and in a failing
                                                         condition.
 NOVA Bank                    10/26/12       $91.2       The bank was operating in an             No            N/A         N/A
 (Berwyn, Pennsylvania)                                  unsafe and unsound condition
                                                         to transact business, had an
                                                         impairment of its capital below
                                                         the minimum required by law,
                                                         and was in violation of a consent
                                                         order.
 Heritage Bank of Florida      11/2/12       $65.5       The bank was imminently                  No            N/A         N/A
 (Lutz, Florida)                                         insolvent.
 Hometown Community           11/16/12       $36.7       The bank was unable to meet              No            N/A         N/A
 Bank (Braselton, Georgia)                               certain requirements of the
                                                         consent order, including the
                                                         minimum levels of capitalization.
 Community Bank of the        12/14/12       $12.4       The bank was critically                  No            N/A         N/A
 Ozarks (Sunrise Beach,                                  undercapitalized.
 Missouri)
 Westside Community            1/11/13       $26.8       The bank was in an unsafe and            No            N/A         N/A
 Bank (University Place,                                 unsound condition, and it would
 Washington)                                             be inappropriate and contrary to
                                                         the public interest to allow the
                                                         bank to continue in business.

58
FDIC OIG Review Activity for the Period April 1, 2013 through September 30, 2013 (for failures causing losses
to the DIF of less than $150 million from January 1, 2012 through December 31, 2013)
                                        Estimated                                        Unusual
                                         Loss to       Grounds Identified by the
                                                                                      Circumstances   Reason for   Due Date
                              Closing      DIF          State Bank Supervisor
    Institution Name                                                                    Warranting     In-Depth     or Date
                               Date                       for Appointing the
                                        (Dollars in                                      In-Depth       Review      Issued
                                                           FDIC as Receiver
                                         millions)                                       Review?
1st Regents Bank              1/18/13     $16.2       The bank was in an unsafe and        No            N/A         N/A
(Andover, Minnesota)                                  unsound condition and was
                                                      critically undercapitalized.
Reviews Pending/Ongoing as of the End of the Reporting Period
Covenant Bank                 2/15/13     $21.8
(Chicago, Illinois)
Frontier Bank                 3/8/13      $51.6
(LaGrange, Georgia)
Heritage Bank of North        4/19/13     $30.2
Florida
(Orange Park, Florida)
Chipola Community Bank        4/19/13     $10.3
(Marianna, Florida)
Parkway Bank                  4/26/13     $18.1
(Lenoir, North Carolina)
Douglas County Bank           4/26/13     $86.4
(Douglasville, Georgia)
Pisgah Community Bank         5/10/13      $8.9
(Asheville, North Carolina)
Sunrise Bank                  5/10/13     $17.3
(Valdosta, Georgia)
Central Arizona Bank          5/14/13      $8.6
(Scottsdale, Arizona)
Banks of Wisconsin            5/31/13     $26.3
(Kenosha, Wisconsin)
1st Commerce Bank             6/6/13       $9.4
(North Las Vegas, Nevada)
First Community Bank of       8/2/13      $27.1
SW Florida
(Fort Myers, Florida)
Bank of Wausau                8/9/13      $13.5
(Wausau, Wisconsin)
Community South Bank          8/23/13     $72.5
(Parsons, Tennessee)
Sunrise Bank of Arizona       8/23/13      $17
(Phoenix, Arizona)
The Community’s Bank          9/13/13      $7.8
(Bridgeport, Connecticut)




                                                                                                                              59
     Appendix 3: Peer Review Activity
     (required by the Dodd-Frank Wall Street Reform and Consumer Protection Act)




         Section 989C of the Dodd-Frank Act contains additional semiannual reporting requirements pertaining to peer
     review reports. Federal Inspectors General are required to engage in peer review processes related to both their audit
     and investigative operations. In keeping with Section 989C, the FDIC OIG is reporting the following information
     related to its peer review activities. These activities cover our most recent roles as both the reviewed and the review-
     ing OIG and relate to both audit and investigative peer reviews.

     Audit Peer Reviews
        On the audit side, on a 3-year cycle, peer reviews are conducted of an OIG audit organization’s system of quality
     control in accordance with the CIGIE Guide for Conducting External Peer Reviews of the Audit Organizations of
     Federal Offices of Inspector General, based on requirements in the Government Auditing Standards (Yellow Book).
     Federal audit organizations can receive a rating of pass, pass with deficiencies, or fail.


         •	 The U.S. Department of State (DOS) and the Broad-
     	      casting Board of Governors OIG conducted a peer             Definition of Audit Peer Review Ratings
     	      review of the FDIC OIG’s audit organization and             Pass: The system of quality control for the audit
     	      issued its system review report on September 17,            organization has been suitably designed and
     	      2013. In the DOS OIG’s opinion, the system of qual-         complied with to provide the OIG with reasonable
     	      ity control for our audit organization in effect during     assurance of performing and reporting in confor-
     	      the period April 1, 2011 through March 31, 2013,            mity with applicable professional standards in all
     	      had been suitably designed and complied with to             material respects.
     	      provide our office with reasonable assurance of
     	      performing and reporting in conformity with appli-
     	      cable professional standards in all material respects.      Pass with Deficiencies: The system of quality
     	      We received a peer review rating of pass.                   control for the audit organization has been suitably
                                                                        designed and complied with to provide the OIG
               The report’s accompanying letter of comment
                                                                        with reasonable assurance of performing and
           contained six recommendations that, while not
                                                                        reporting in conformity with applicable profes-
           affecting the overall opinion, were designed to
                                                                        sional standards in all material respects with the
           further strengthen the system of quality control in the
                                                                        exception of a certain deficiency or deficiencies that
           FDIC OIG Office of Audits and Evaluations.
                                                                        are described in the report.
         In responding to the recommendations, we commit-
     ted to completing recommended actions by February 28,
     2014.                                                              Fail: The review team has identified significant
                                                                        deficiencies and concludes that the system of qual-
         This peer review report (the system review report and
                                                                        ity control for the audit organization is not suitably
     accompanying letter of comment) is posted on our Web
                                                                        designed to provide the reviewed OIG with reason-
     site at www.fdicig.gov
                                                                        able assurance of performing and reporting in
     FDIC OIG Peer Review of the Smithsonian                            conformity with applicable professional standards
     Institution OIG                                                    in all material respects or the audit organization
                                                                        has not complied with its system of quality control
         The FDIC OIG completed a peer review of the audit
                                                                        to provide the reviewed OIG with reasonable
     operations of the Smithsonian Institution (SI), and we
                                                                        assurance of performing and reporting in confor-
     issued our final report to that OIG on September 21,
                                                                        mity with applicable professional standards in all
     2011. We reported that in our opinion, the system of
                                                                        material respects.
     quality control for the audit organization of the SI OIG,
     in effect for the 15-month period ended March 31, 2011, had
     been suitably designed and complied with to provide the
     SI OIG with reasonable assurance of performing and report-
     ing in conformity with applicable professional
     standards in all material respects. The SI OIG received a peer review rating of pass.


60
    As is customary, we also issued a letter of comment,           •	 The FDIC OIG conducted a peer review of the inves-
dated September 21, 2011, that set forth findings and          	      tigative function of the National Aeronautics and
recommendations that were not considered to be of              	      Space Administration OIG during June through
sufficient significance to affect our opinion expressed in     	      August 2011. We issued our final report to NASA OIG
the system review report. We made 11 recommendations,          	      on November 10, 2011. We reported that, in our opin-
with which the SI OIG agreed. SI OIG indicated it would        	      ion, the system of internal safeguards and management
complete all corrective actions related to the findings        	      procedures for the investigative function of the NASA
and recommendations no later than March 31, 2012. Our          	      OIG in effect for the period ending December 31, 2010
findings and recommendations related to the following          	      was in full compliance with the quality standards
areas: standards followed on desk reviews, statements of       	      established by CIGIE and Attorney General Guide-
independence for referencers, disciplinary mechanism for       	      lines. We also issued a letter of observations but made
reporting personal impairments, reviews of continuing          	      no recommendations in that letter.
professional education data, reporting whether audit results       •	 The Department of Energy (DOE) OIG conducted
can be projected, internal quality assurance program           	      the most recent peer review of our investigative func-
enhancements, and SI OIG’s letter related to the annual        	      tion. DOE OIG issued its final report on the quality
financial statements audit. SI OIG has posted its peer         	      assessment review of the investigative operations
review report (the system review report and accompanying       	      of the FDIC OIG on July 31, 2012. DOE OIG reported
letter of comment) on its Web site at www.si.edu/oig/.         	      that in its opinion, the system of internal safeguards
     In our semiannual report as of March 31, 2012, we         	      and management procedures for the investigative
reported that the SI OIG reported completed actions on         	      function of the FDIC OIG in effect for the year ending
4 of our 11 recommendations. SI OIG was also updating          	      June 22, 2012, was in compliance with quality stan-
its audit manual to reflect the Fiscal Year 2011 revision      	      dards established by CIGIE and the applicable
to government auditing standards and recommendations           	      Attorney General guidelines. These safeguards and
from our peer review. As of September 30, 2012, SI OIG         	      procedures provided reasonable assurance of conform-
reported that actions on all recommendations in our peer       	      ing with professional standards in the planning,
review report had been completed.                              	      execution, and reporting of FDIC OIG investigations.

Ongoing FDIC OIG Audit Peer Review Activity
    We are currently preparing to conduct a peer review
of the audit organization of the National Archives and
Records Administration OIG. We will report the results of
that review in an upcoming semiannual report.


Investigative Peer Reviews
    Quality assessment peer reviews of investigative
operations are conducted on a 3-year cycle as well. Such
reviews result in a determination that an organization is
“in compliance” or “not in compliance” with relevant
standards. These standards are based on Quality Stan-
dards for Investigations and applicable Attorney General
guidelines. The Attorney General guidelines include the
Attorney General Guidelines for Offices of Inspectors
General with Statutory Law Enforcement Authority (2003),
Attorney General Guidelines for Domestic Federal Bureau
of Investigation Operations (2008), and Attorney General
Guidelines Regarding the Use of Confidential Informants
(2002).




                                                                                                                                61
 C   Congratulations and Farewell


                 Retirement—Charles Chisolm
                                             Special Agent Charles
                                           Chisolm retired from the
                                           FDIC following more than
                                           36 years of federal service,
                                           including 2 years of military
                                           service in the United States
                                           Army from August 1974
                                           through August 1976. He
                                           began his federal career
                 in 1978 as a clerk typist at the Equal Employment
                 Opportunity Commission and thereafter spent
                 time at the Department of Health, Education, and
                 Welfare in other clerical assignments. In 1980, he
                 joined the Department of Education as a collections
                 agent, and from 1981 until 1991, he continued his
                 career at the Department of the Treasury’s Internal
                 Revenue Service, serving as a tax examiner and a
                 revenue officer in offices in Texas.
                   He became a criminal investigator at the
                 Department of Education OIG in 1991 and served
                 there until 1998. In 1998, he joined the FDIC OIG
                 workforce in Dallas, Texas, and advanced steadily
                 in his career while serving as special agent in the
                 Office of Investigations.	
                    Charles’ investigative skills contributed to the
                 success of a complex financial institution fraud
                 case involving the failure of BestBank, Boulder,
                 Colorado, including the conviction of an individual
                 on 43 counts of bank fraud and wire fraud and a
                 restitution order of more than $9 million to the
                 FDIC as Receiver for BestBank. His participation
                 on a joint investigation with the Department of
                 Agriculture OIG in 2006 earned him the honor of
                 an Award for Excellence from the Inspector General
                 community. Throughout his career, Charles earned
                 the respect of his immediate colleagues and others
                 in the federal, state, and local law enforcement
                 community for his efforts to ensure integrity in the
                 financial services and banking industries.


62
Retirement—Bill Harrington
                            Bill Harrington retired from
                          the FDIC after more than 37
                          years of federal service. He
                          began his career on several
                          temporary appointments
                          during the period 1964
                          through 1971, at the U.S.
                          Department of Agriculture
                          (USDA); Department
of Health, Education, and Welfare (HEW--now
Department of Health and Human Services or HHS);
and Small Business Administration. In 1979, he took
an accountant position at HEW in Austin, Texas, and
was subsequently promoted to an auditor position
and then reassigned to HHS in Olympia, Washington,
in September 1980. Several years later, he transferred
to the USDA OIG in Seattle, Washington, and then on
to the Department of Transportation OIG, where he
served as an auditor for 5 years. In October 1989, he
began his tenure in the FDIC OIG as a senior auditor
in the OIG’s Dallas office and served with distinction
right up to his retirement. Bill also has the honor of
having served in the U.S. Army from November 1967
through August 1969.
  Bill was instrumental in many OIG audits—
including a number of contract audits like the
owned real estate management contract with CB
Richard Ellis and the FDIC’s Guard Services Contract;
program audits in various FDIC Divisions, including
the Division of Resolutions and Receiverships’
program for managing owned real estate and the
Division of Risk Management Supervision’s Bank
Secrecy Act and anti-money laundering program.
He provided invaluable assistance on an assignment
requested by a former FDIC Chairman as well–one
involving procurement integrity and IT governance.
  He also helped in our efforts to ensure strong
controls over the FDIC’s information security
program and related IT activities through our
audits under FISMA and other reviews of FDIC
privacy contract clauses and FDIC background
investigations. His efforts on material loss reviews
were critical in helping the OIG meet its statutory
mandate to examine the causes of bank failures and
the FDIC’s supervision of the institutions.
                                                           63
F    Farewell to Former FDIC IG Jon T. Rymer




       After more than 7 years of service as         the global economy, the nation’s banking
     the FDIC Inspector General (IG), Jon            system, and the financial marketplace, the
     Rymer has left the Corporation to become        OIG completed more than 100 material
     the IG at the Department of Defense.            loss and in-depth reviews outlining
     Following a successful career in the            the causes of institution failures and
     private sector as a banker and member of        assessing the FDIC’s supervision of the
     a public accounting firm, Mr. Rymer was         failed institutions, and failed bank reviews
     nominated by President George W. Bush,          of an additional 170 institutions, a body
     confirmed by the United States Senate           of work that brought about significant
     on June 22, 2006, and sworn into office as      enhancements to the FDIC’s examination
     the FDIC IG on July 5, 2006.                    and supervisory activities.
        During Mr. Rymer’s tenure, the                 Mr. Rymer also led the OIG’s
     OIG issued more than 230 audit and              investigative staff of special agents,
     evaluation reports with more than 400           coordinating closely with the Department
     non-monetary recommendations and                of Justice; U.S. Attorney’s Offices; the FBI;
     $113 million in potential monetary              and other federal, state, and local law
                                                     enforcement colleagues throughout the
     benefits. This body of work enhanced the
                                                     nation. As a result of this investigative
     economy, efficiency, and effectiveness of
                                                     work, the FDIC OIG and the Department
     FDIC programs and operations in such
                                                     of Justice brought to justice those who
     areas as examination activities, resolution
                                                     caused losses to the DIF, threatened
     and receivership matters, consumer
                                                     the safety and soundness of financial
     protections, enterprise risk management,
                                                     institutions, and undermined the
     corporate governance, privacy and               integrity of the financial services and
     information security controls, and              housing industries through more than
     financial and contract operations.              925 indictments, 750 convictions, 450
       During the financial crisis, in particular,   arrests, and $5.9 billion in potential fines,
64   a period of unprecedented challenges to         restitution, and monetary recoveries.
  In fulfilling his role as IG, Mr. Rymer        In May 2011, he also assumed the role
engaged in ongoing communications             of Vice Chair of the Council of Inspectors
with the Congress through OIG                 General on Financial Oversight, leading
semiannual reports; Congressional             its first working group effort examining
testimonies and communications                the Financial Stability Oversight Council’s
with the Senate Banking, House                controls over non-public information.
Financial Services, and other interested      Over the years, he also forged strong
Committees; Congressionally requested         working relationships with the U.S.
studies and correspondence; and periodic      Government Accountability Office and
staff briefings.                              served as a member of the Comptroller
  Concurrent with his service as IG of the    General’s Yellow Book Advisory Board
FDIC, Mr. Rymer served as Interim IG of       and as Chair of the Green Book Advisory
the Securities and Exchange Commission        Council.
from May 31, 2012 until January 31, 2013,       Mr. Rymer proudly served our nation
and guided that office at a challenging       for more than 30 years through active
time as the Commission was seeking to         and reserve duty as a member of the U.S.
name a permanent Inspector General.           Army. He retired from military service in
  Mr. Rymer was an active and highly          June 2013.
esteemed member of the Council of               The OIG sincerely appreciates all
the Inspectors General on Integrity and       aspects of Mr. Rymer’s service to our
Efficiency while serving as IG of the         country and to the FDIC. We bid Mr.
FDIC, including serving on the Executive      Rymer a fond farewell and wish him the
Council and as Chair of the Council’s Audit   best in his new role as Department of
Committee since July 2008.                    Defense Inspector General.


                                                                                            65
                        Abbreviations and Acronyms
     ANB	              ANB Financial, N.A.
     BDO	              BDO USA, LLP
     BOC	              Bank of the Commonwealth
     CEO	              Chief Executive Officer
     CIGFO	            Council of Inspectors General on Financial Oversight
     CIGIE	            Council of the Inspectors General on Integrity and Efficiency
     CIO	              Chief Information Officer
     CSDO	             collateral secured debt obligation
     DIF	              Deposit Insurance Fund
     DIT	              Division of Information Technology
     Dodd-Frank Act	   Dodd-Frank Wall Street Reform and Consumer Protection Act
     DRR	              Division of Resolutions and Receiverships
     ECU	              Electronic Crimes Unit
     FBI	              Federal Bureau of Investigation
     FDI Act	          Federal Deposit Insurance Act
     FDIC	             Federal Deposit Insurance Corporation
     FISMA	            Federal Information Security Management Act
     FRB	              Board of Governors of the Federal Reserve System
     GPRA	             Government Performance and Results Act of 1993
     IG	               Inspector General
     IRS-CI	           Internal Revenue Service, Criminal Investigation Division
     IT	               Information Technology
     NCIJTF	           National Cyber Investigative Joint Task Force
     OCC	              Office of the Comptroller of the Currency
     OCFI	             Office of Complex Financial Institutions
     OIG	              Office of Inspector General
     OTS	              Office of Thrift Supervision
     RMS	              Division of Risk Management Supervision
     SAR	              Suspicious Activity Report
     SDLC	             Systems Development Life Cycle
     SIGTARP	          Special Inspector General for the Troubled Asset Relief Program




66
C
Congratulations to CIGIE Award Recipients

Eight members of the FDIC OIG, along with colleagues from six other OIGs, were recognized by the
Council of the Inspectors General on Integrity and Efficiency (CIGIE) for their excellent work over the last
year. The Barry R. Snyder Joint Award, one of the featured awards bestowed by CIGIE’s Executive Council,
recognizes groups who have made significant contributions through a cooperative effort in support of the
CIGIE mission. The Council of Inspectors General on Financial Oversight Working Group received this
year’s Barry R. Snyder Joint Award at the CIGIE Annual Awards Ceremony on November 15, 2013.

Barry R. Snyder Joint Award
Council of Inspectors General on Financial Oversight Working Group: Audit of the Financial Stability
Oversight Council’s Controls over Non-Public Information
In recognition of outstanding collaborative efforts to identify the security gaps in non-public information-
sharing among members of the Financial Stability Oversight Council

Arlene Boateng, Senior Audit Specialist, FDIC OIG
Leslee Bollea, Congressional Relations Director, FDIC OIG
Daniel Craven, Senior IT Specialist, FDIC OIG
Judith Hoyle, IT Auditor-in-Charge, FDIC OIG
Adriana Rojas, Associate Counsel, FDIC OIG
Teresa Supples, Office Support Specialist, FDIC OIG
Sharon Tushin, Communications Director, FDIC OIG
Margaret Wolf, Supervisory Auditor, FDIC OIG

The working group, a first of its kind, performed an innovative and timely review to examine the informa-
tion security control environments of the newly created financial oversight council. Given its mission, this
council will work with highly sensitive, global financial services information. Based on the results of this
audit, the working group identified potential risks or gaps that the council should consider as part of its
efforts to develop a control framework over the exchange of information between and among its members.

The working group, led by the FDIC OIG, consisted of OIGs from the following agencies:

  •	 Board of Governors of the Federal Reserve System and Consumer Financial Protection Bureau
  •	 Commodity Futures Trading Commission
  •	 Department of the Treasury
  •	 Federal Deposit Insurance Corporation
  •	 Federal Housing Finance Agency
  •	 National Credit Union Administration
  •	 Securities and Exchange Commission




                                                                                                               67
                                        The Office of Inspector General
                                        (OIG) Hotline is a convenient
                                        mechanism employees, contrac-
                                        tors, and others can use to report
                                        instances of suspected fraud,
                                        waste, abuse, and mismanage-
ment within the FDIC and its contractor operations. The OIG maintains a
toll-free, nationwide Hotline (1-800-964-FDIC), electronic mail address
(IGhotline@FDIC.gov), and postal mailing address. The Hotline is
designed to make it easy for employees and contractors to join with the
OIG in its efforts to prevent fraud, waste, abuse, and mismanagement
that could threaten the success of FDIC programs or operations.

To learn more about the FDIC OIG and for copies of audit and
evaluation reports discussed in this Semiannual Report, visit our
Web site: http://www.fdicig.gov



Federal Deposit Insurance Corporation
Office of Inspector General
3501 Fairfax Drive
Arlington, VA 22226
